<html>
<title> - MARKUP OF H.R. 1, FOR THE PEOPLE ACT OF 2019, OR A RELATED MEASURE, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





                                                            
MARKUP OF H.R. 1, FOR THE PEOPLE ACT OF 2019, OR A RELATED MEASURE, AND 
                           FOR OTHER PURPOSES

=======================================================================

                                 MARKUP

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           FEBRUARY 26, 2019

                               ----------                              

      Printed for the use of the Committee on House Administration
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
         
         
         

  MARKUP OF H.R. 1, FOR THE PEOPLE ACT OF 2019, OR A RELATED MEASURE,

                         AND FOR OTHER PURPOSES
                         
                         
                         
                         
                         
                         
                         


 
MARKUP OF H.R. 1, FOR THE PEOPLE ACT OF 2019, OR A RELATED MEASURE, AND 
                           FOR OTHER PURPOSES

=======================================================================

                               MARKUP

                             BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2019

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
38-256 PDF             WASHINGTON : 2019        
 
 
 
 
         


MARKUP OF H.R. 1, FOR THE PEOPLE ACT OF 2019, OR A RELATED MEASURE, AND 
                           FOR OTHER PURPOSES

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:05 p.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
(Chairperson of the Committee) presiding.
    Present: Representatives Zoe Lofgren, Jamie Raskin, Susan 
Davis of California, G.K. Butterfield, Marcia L. Fudge, Pete 
Aguilar, Rodney Davis of Illinois, Mark Walker, and Barry 
Loudermilk.
    Staff Present: Jamie Fleet, Majority Staff Director; Eddie 
Flaherty, Director of Operations; Sean Jones, Legislative 
Clerk; David Tucker, Senior Counsel and Parliamentarian; 
Elizabeth Hira, Elections Counsel; Stephen Spaulding, Elections 
Counsel; Khalil Abboud, Chief Elections Counsel; Veleter 
Mazyck, Chief of Staff, Office of Representative Fudge; Mariam 
Malik, Staff Assistant; and Jen Daulby, Minority Staff 
Director.
    The Chairperson. A quorum being present, the Committee will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time, and we know that we have a couple of 
members on their way, but the Ranking Member assures me it is 
fine to begin.
    Pursuant to Committee Rule 4 and clause 2(h)(4) of House 
Rule XI, the Chair announces that she may postpone further 
proceedings today when a recorded vote is ordered on the 
question of approving a measure or a matter or on adopting an 
amendment and so let us begin.
    The Committee meets today to consider H.R. 1, The For the 
People Act. I would like to thank the members for their 
participation in our hearing two weeks ago. I would like to 
also thank our colleague from Maryland, Representative John 
Sarbanes, for his work on developing these reforms to our 
democracy.
    H.R. 1 makes it easier, not harder, to vote. It ends the 
dominance of big money interests in our politics and it ensures 
public officials work in the public interest. Today, the 
Committee will consider just areas of the proposal that are 
within the jurisdiction of this Committee.
    I have consulted with the Office of the House 
Parliamentarian on making these determinations and believe, and 
they concur, that my amendment in the nature of a substitute 
fairly reflects the jurisdictional limits that are provided for 
in House Rules.
    We will consider automatic voter registration. That could 
add up to 50 million new voters to the polls. We will consider 
same-day registration and protection against improper voting 
purging. We will also consider improvements to ballot access 
for voters with disabilities as well as overseas and military 
voters.
    H.R. 1 will also require States to use voter-verified, 
paper ballots, and we authorize grants to States to do so. We 
will require early voting for at least 15 days and prohibit any 
condition on absentee voting. Furthermore, we will give States 
additional resources to train poll workers.
    H.R. 1 establishes new disclosure requirements so that the 
American people know who is trying to influence their 
elections. We also establish new requirements to make sure 
people know who is paying for political advertisements, whether 
on television or online. And we make those funders stand by 
their ads.
    We also establish a completely voluntary system of public 
financing for Congressional and Presidential campaigns, and as 
my amendment makes clear, no appropriated--in other words, 
taxpayer--funds will be used to support political campaigns.
    We will fix the Federal Elections Commission. It is no 
secret that the FEC is one of the most dysfunctional agencies 
of our government. By changing the composition of the 
Commission and establishing a blue-ribbon advisory panel to 
recommend Commissioners, we will put a cop back on the campaign 
finance enforcement beat.
    H.R. 1 was introduced on January 3rd, 55 days ago. The 
House has had five hearings on H.R. 1 in five different 
Committees with over 15 hours of testimony from bipartisan 
experts.
    I hope today's markup will be fruitful and we will consider 
amendments on matters within our jurisdiction. It is my 
intention to keep the process moving along cordially and 
fairly, and I now recognize the Ranking Member, Mr. Davis, for 
any opening statement he may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Davis of Illinois. Thank you, Chairperson Lofgren. It 
is great to serve with you. I appreciate the process, 
appreciate my colleagues on both sides of this dais.
    The greatest threat to our Nation's election system is 
partisanship. H.R. 1 was drafted to serve the special interest 
of Democrats and the outside organizations that support the 
Democratic Party. It was created without any input from even 
just us three Republican Members of Congress on this Committee, 
let alone any other Republicans that represent districts from 
across this Nation in the House of Representatives and also 
without the consultation of officials or election 
administrators.
    In fact, there isn't a single Republican cosponsor. H.R. 1 
is a prime example of the Democratic Party telling States that 
the Federal Government knows better than they do, and the 
Washington, D.C., swamp is taking over the country's election 
system.
    This legislation overreaches our Constitution. It violates 
a citizen's basic free speech rights under the First Amendment, 
such as expressing displeasure with the electoral process by 
not participating.
    H.R. 1 also overreaches our Constitution by taking the 
power away from States to decide how their elections should be 
administered, States that know their residents' elections needs 
much better than a Federal bureaucracy does.
    H.R. 1 forces a nationwide approach that will be costly and 
ineffective. H.R. 1 will weaken our voting system by 
centralizing the voting process, creating unsurmountable 
vulnerabilities. This bill disregards safeguards upon 
implementing many new registration requirements and voting 
practices.
    We should absolutely--absolutely--be in favor of increasing 
access to polls, but without adding the necessary checks and 
balances to ensure these practices are protected, we are 
opening the door for fraud in our election system. A few 
fraudulent votes can change the outcome of a single election, 
something I can personally attest to. Out of everyone here on 
this Committee, I had the closest election results in the 2018 
election and probably every other election in my career since I 
represent a much more bipartisan district than everyone on this 
Committee. In the 2018 election, I won by 0.8 points, 2,058 
votes. Almost got me. It is okay.
    There is not as much room for error in my district as there 
are for some of you. I know my good friend Congresswoman Fudge 
won by 64 points. I don't know what that is like.
    Ms. Fudge. Is that all?
    Mr. Davis of Illinois. That was it. Chairperson Lofgren won 
by 48 points. When you live in a competitive district, every 
single vote makes a difference between winning and losing. If 
we pass these new voter registration practices in H.R. 1 
without creating safeguards around the practices to ensure we 
eliminate the possibility of fraudulent voting, we risk taking 
away the choice of the American people who voted fairly. If we 
leave any room for fraud in the system, we take away the voice 
of each American voter.
    American voters have the Constitutional right to choose 
their Representative. In the case of Reynolds v. Sims, the 
Supreme Court stated the right of suffrage can be denied by a 
debasement or dilution of the weight of a citizen's vote just 
as effectively as by wholly prohibiting the free exercise of 
the franchise.
    Democrats boast that H.R. 1 is for the people. Yet they are 
failing the people by not doing their due diligence to ensure 
that H.R. 1 will protect each American's vote. When H.R. 1 was 
introduced, it was referred to 10 House Committees who were 
each designated to have jurisdiction over areas of this bill 
and out of those 10, only 5 committees have held hearings on 
H.R. 1, and out of those 5, this Committee is the only one to 
hold a markup.
    Speaker Pelosi has made it clear that they want to advance 
H.R. 1 as soon as possible, even sending out a Dear Colleague 
letter declaring it would advance to the Floor this month. It 
is not a leap year. I doubt it is going to happen.
    My colleagues across the aisle insist that H.R. 1 is their 
serious effort for election reform but they are imprudently 
rushing to get this 571-page bill to the Floor without ensuring 
the Committees of jurisdiction have time to properly review and 
amend it.
    This process of review on H.R. 1 has been so rushed; we 
still have no CBO score to determine how much this mammoth 
legislation is going to cost. We don't even have a preliminary 
estimate. H.R. 1's campaign match provisional loan will be an 
outrageous mandatory cost to the American taxpayers.
    H.R. 1 is creating public subsidies through the 6-to-1 
government match on small-dollar contributions of up to $200. 
For every $200, the Federal Government will pay $1,200 of 
taxpayer money to a political campaign.
    The Democratic Members of this Committee received roughly 
$800,000 in small-dollar contributions this last election 
cycle. That would be $5 million taxpayer dollars going to their 
campaigns. Imagine if every Member of Congress, not counting 
all the candidates in each race, just the 435 Members, received 
a million dollars in matched funds from the Federal Government. 
That is a half a billion dollars that are going to subsidize 
political campaigns. Welcome to campaign-finance socialism.
    Election reform should be bipartisan. I hope my colleagues 
on this panel will consider voting in favor of the amendments 
we are introducing today so that we may put forth legislation 
that is meant to serve the people and not serve the interest of 
one party.
    Thank you, and I yield back the balance of my time that I 
don't have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairperson. Thank you. The gentleman yields back. I 
will just note, for the record, that we certainly welcome the 
minority to participate in finalizing this bill. That is why we 
are having this markup today. The bill has been posted online 
and available for review for 55 days, and I have read it three 
times. I don't have a photographic memory, but I certainly am 
aware at this point of the outlines of it.
    I would now ask that the opening statements of all other 
Members be included in the record without objection and would 
like to call up H.R. 1. The clerk shall report the title of the 
legislation.
    The Clerk. H.R. 1, To expand Americans' access to the 
ballot box, reduce the influence of big money in politics, and 
strengthen ethics rules for public servants, and for other 
purposes.
    The Chairperson. Without objection, the first reading of 
the bill is dispensed with, and without objection, the bill is 
considered as read and open for amendment at any point.
    [The bill follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   The Chairperson. The Chair now recognizes herself to offer 
an amendment in the nature of a substitute. The amendment has 
been made available in advance and is in front of each member, 
and the clerk shall designate the amendment.
    The Clerk. The amendment in the nature of a substitute to 
H.R. 1, offered by Ms. Lofgren of California. Strike all after 
the enacting clause and insert the following: Section 1, short 
title----
    The Chairperson. Without objection, the amendment will be 
considered as read and be considered as original text for 
purposes of amendment and shall be open for amendment at any 
point.
    [The amendment of The Chairperson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     The Chairperson. I would now recognize myself for the 
purpose of offering an amendment. This amendment has been made 
available in advance and is in front of each Member. The clerk 
shall designate the amendment.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Ms. Lofgren of California. 
In section 5----
    The Chairperson. Without objection, the further reading of 
the amendment will be dispensed with.
    [The amendment of The Chairperson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. This amendment is technical in nature. It 
fixes a drafting error.
    It simply changes one word, changing the word ``subtitle'' 
to ``section'' and, in doing so, fixes an inadvertent drafting 
error. I hope that we can adopt this unanimously, even if you 
are opposed to the measure, at least it should be accurate.
    Mr. Davis of Illinois. Madam Chairperson, this is clearly a 
drafting error, and it is an example of bipartisanship. I 
intend to vote for this amendment but this is what happens when 
a bill is rushed through to the floor. There are numerous areas 
of this bill that suffer other drafting errors, and we hope to 
address those in our amendments as we move forward today, and I 
support this amendment.
    The Chairperson. Thank you.
    Is there any further debate on the amendment?
    If not, the question is on this technical amendment.
    All those in favor, say aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it. The 
amendment is agreed to.
    Does any Member wish to be heard, seek recognition?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. Mrs. Davis.
    Mrs. Davis of California. Madam Chairperson, I reserve a 
point of order.
    The Chairperson. A point of order has been reserved, and 
Mr. Davis is recognized to introduce his amendment.
    Mr. Davis of Illinois. This amendment----
    The Chairperson. First, we should have the clerk report the 
amendment and distribute it. The clerk will read the title.
    Mr. Jones, you can read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis----
    The Chairperson. Without objection, further reading of the 
amendment is dispensed with.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. Mr. Davis, you are recognized on behalf of 
your amendment.
    Before doing so, does Mrs. Davis insist on her point of 
order?
    Mrs. Davis of California. Proceed.
    The Chairperson. Okay. Mrs. Davis withdraws her point of 
order.
    Mr. Davis, proceed.
    Mr. Davis of Illinois. Thank you. This Davis thing will get 
confusing. I apologize if I answer to the wrong Davis.
    The Chairperson. Oh, that is right.
    Mr. Davis of Illinois. That is okay, that is okay.
    I don't want anybody to be offended if we start to talk 
over each other a little bit.
    This amendment strikes Section 1001. This provision of H.R. 
1 requires every State to implement online voter registration 
to Federal standards. I am all for States providing online 
voter registration, but I am against federalizing online voter 
registration.
    At least 37 States have already implemented some type of 
online voter registration and by mandating a new Federal 
standard, it takes power away from State and local election 
officials, as well as State legislatures. Many officials from 
States that have implemented online voter registration will 
tell you that a huge obstacle in rolling this out is the 
cybersecurity challenges that come with it.
    Any time parts of the voting process are connected to the 
internet it invites hacking attempts. The process of developing 
and testing proper safeguards takes time and money and that 
process cannot be rushed without unnecessary risk. This 
provision would also allow for voters to provide a signature 
electronically without any validation through a DMV database, 
serving to weaken the overall integrity of online voter 
registration.
    I support this--I support the passage of this amendment, 
and I yield back, Madam Chairperson.
    The Chairperson. The gentleman yields back. You know, 
internet voting registration is really a commonsense, 21st 
century measure to increase participation in the polls, and far 
from leaving systems open to irreversible and rampant hacking, 
online voter registration has been adopted by 37 States and the 
District of Columbia. These registrations supplement, but do 
not replace, other methods of voter registration, and as with 
all other registrations provided by H.R. 1, online voter 
registration will allow election officials to review 
registrations for eligibility and voters to cure any 
discrepancies in their registration at the time of requesting a 
ballot in an election as provided by Section 1001, titled 
Requiring Availability of Internet Voter Registration.
    Now, internet registration provides valuable cost savings 
as well. According to the 2010 report, ``Online Voter 
Registration: Case Studies in Arizona and Washington,'' Arizona 
experienced a reduction in per-registration costs from 83 cents 
per paper registration to 3 cents per online registration.
    Other States have experienced significant cost savings as 
well. I would just note that I understand the gentleman's 
objection to federalizing Federal election eligibility, but 
that is really what this bill is about. Under Article I, 
Section 4, Congress has the ability to make every voter have 
equivalent access to the polls and that is what we are doing 
here. I would urge that we oppose the gentleman's amendment.
    And, with that, are there other Members who wish to be 
heard on the amendment?
    Mr. Davis of Illinois. Madam Chairperson, I believe that if 
you look at some of the writings of the colleagues who served 
before us in creating this great Nation, they will say that--
Alexander Hamilton in his Federalist Papers would say that 
specific provisions were left out of the article that you 
mentioned of our Constitution because many at the time were 
afraid that States would go ahead and decide to not have 
elections and, therefore, diminish the ability of the 
government that we have today.
    I disagree with the assessment that Article I gives us, in 
Congress, the ability to tell election officials nationwide how 
to run their elections. As a matter of fact, the Federal 
Government, Madam Chairperson, does not have a good history of 
providing cost-effective internet access to many programs--such 
as the Affordable Care Act, for example--to be able to then 
provide how States should run online voter registration.
    We have States that have already implemented these programs 
that will now have to bear the cost to change them if the 
Federal Government takes over and H.R. 1 becomes the law of the 
land. That is why this amendment is so important. That is why 
this amendment is in order, and I certainly hope we can get 
many of our colleagues to support it today.
    The Chairperson. Thank you, Mr. Davis.
    We are operating under the five minute rule. I did not want 
to interrupt your statement, but ordinarily we need other 
Members to get time. I am not going to let other Democratic 
Members speak more than once either, but I didn't want to 
interrupt you and be rude.
    Are there other Members that wish to be heard on the 
amendment? The gentlelady from California has withdrawn her 
point of order already.
    Mrs. Davis of California. Yes.
    The Chairperson. All those in favor of the amendment will 
say aye.
    All those opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. Madam Chairperson, I request a roll 
call vote. I get the confusion. We are on the opposite sides.
    The Chairperson. That is right.
    Mr. Davis has asked for a roll call vote. So the clerk will 
call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    [No response.]
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, five Members voting no, two 
Members voting yes.
    The Chairperson. The amendment is not agreed to.
    Does any Member seek recognition?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. The Ranking Member is recognized, and the 
clerk will distribute the amendment and read the title.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mrs. Davis of California. I reserve a point of order again.
    The Chairperson. The gentlelady from California reserves a 
point of order.
    Mr. Davis of Illinois. Well, Madam Chairperson, this 
amendment strikes Section 1012(d). This provision in H.R. 1 
would prohibit States from treating 16- and 17-year-olds as 
ineligible to vote for purposes of automatic registration. 
Automatically registering individuals to vote has inherent 
risks and opens the door to fraud.
    This provision requires the registering of 16- and 17-year-
olds who are, in fact, not eligible to vote, only furthering 
that risk. As a matter of fact, 16- and 17-year-olds may not 
know the consequences of casting a vote that they are not 
eligible to cast.
    Additionally, there is a privacy issue, as voter 
registration lists are publicly available, and this bill would 
require States to automatically register minors, which, in 
turn, would make their information publicly available.
    My twins are 18 years old. They registered to vote and 
voted in their first election. I certainly wouldn't want their 
information publicly available for more mail to come into my 
mailbox when they were 16 and 17.
    Furthermore, it violates a citizen's basic free speech 
rights, such as expressing displeasure with the electoral 
process, by choosing not to participate. This provision is at 
best inviting mass confusion and disorder at polling locations 
across the country and at worst inviting election fraud. I 
support the passage of this amendment, and I yield back.
    The Chairperson. The gentleman yields back.
    H.R. 1 does not actually change the voting age. As we know, 
16- and 17-year-olds often do interact with our local 
Departments of Motor Vehicles, and as part of this process, 16- 
and 17-year-olds will have the option to preregister to vote. 
This preregistration is voluntary, and this will just make sure 
that when they turn 18, they are registered to vote. This has 
been used in California with tremendous success, and so I would 
urge that we vote no on the gentleman's amendment. Are there 
additional Members wishing to be heard on the amendment?
    Is the point of order withdrawn?
    Mrs. Davis of California. I withdraw.
    The Chairperson. The point of order is withdrawn.
    All those in favor of the amendment will say aye.
    All those opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. Madam Chairperson, I request a roll 
call vote.
    The Chairperson. A roll call vote is requested. The clerk 
will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Definitely yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    [No response.]
    Mr. Davis of Illinois. Why do you guys always win?
    The Chairperson. Because our cause is righteous.
    Mr. Davis of Illinois. I like when our Chairperson uses the 
word ``righteous.''
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, five Members voting no, two 
Members voting yes.
    The Chairperson. The amendment is not agreed to.
    Does any Member seek recognition?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. Mr. Davis' amendment will be distributed, 
and the clerk will read the title.
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. The gentlelady from California reserves a 
point of order.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1, offered by Mr. Rodney Davis of Illinois. 
Strike Section 1013.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Davis of Illinois. Madam Chairperson, this amendment 
strikes Section 1013. This provision in H.R. 1 would require 
each State and Federal contributing agency and universities to 
transfer customer data for the purposes of registering them to 
vote. Currently, only 16 States have automatic voter 
registration. This provision proposes to force every State to 
adopt automatic voter registration and, in addition, force most 
State agencies to transfer customer records to their State 
election agency for the purposes of registration.
    These automatic voter registration requirements propose to 
fix a nonexistent problem. Let's be clear: It has never been 
easier to register to vote in this country. From a practical 
standpoint, these State agencies are not equipped to handle 
this type of function, and it would divert them from their 
primary mission. Never mind the astronomical cost associated 
with this.
    This provision includes colleges and universities to 
automatically register students. That is not the role of our 
colleges or other State agencies. As a matter of fact, who is 
going to make sure that colleges don't raise tuition just to 
cover the cost of another unfunded mandate?
    In the past, DMVs have had a terrible track record of 
verifying citizenship and incorrectly placing noncitizens on 
the voting rolls. The amount of data that would have to be 
transmitted if H.R. 1 were to be enacted would be enormous and 
would only exacerbate problems that we have seen at DMVs. These 
problems would lead to a significant amount of litigation and 
cost for years to come.
    The goal of everyone voting is not necessarily a shared 
goal of everyone. Voting is a privilege of being in a 
democracy. I support the passage of this amendment, and I yield 
back.
    The Chairperson. The gentleman yields back. I would urge a 
``no'' vote on the amendment. Automatic voter registration is 
far from unvetted. The reality is it has been demonstrated to 
be effective. And according to the Brennan Center for Justice, 
AVR is also functioning successfully in nine States and the 
District of Columbia, and six more are in the process of 
implementing it. You know, the accuracy improves with AVR.
    The fact that you are registered does not require you to 
vote, but we are here to remove barriers to those who want to 
vote. We know that something like a quarter of the people who 
didn't vote, when queried in the last election, said they 
didn't do it because of registration problems. We want to make 
sure American citizens have the option to vote, and one way to 
do that is to make sure that those who are eligible to vote are 
registered to vote.
    So I would urge a ``no'' vote. Does any Member wish to be 
heard on the amendment? If not, the question is on the 
amendment.
    All those in favor will say aye.
    All those opposed will say no.
    In the opinion of the Chair, the noes have it. And the noes 
have it.
    Does any Member----
    Mr. Davis of Illinois. I need a roll call vote. We just had 
it. Oh, wait, I have got an amendment at the desk.
    The Chairperson. Do you want a roll call vote on the last 
amendment?
    Mr. Davis of Illinois. No, we just did it.
    The Chairperson. No, we did a voice vote.
    Mr. Davis of Illinois. Yes, I request a roll call vote.
    The Chairperson. I didn't hear you.
    Mr. Davis of Illinois. Yes.
    The Chairperson. We will have a recorded vote, and the 
clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    [No response.]
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, five Members voting no, two 
Members voting yes.
    The Chairperson. The amendment is not agreed to.
    Does any Member seek recognition?
    Mr. Davis of Illinois. Madam Chairperson, I have another 
amendment at the desk.
    The Chairperson. The gentleman is recognized.
    Mrs. Davis of California. Madam Chairperson, I reserve a 
point of order.
    The Chairperson. A point of order has been reserved, and 
the clerk will read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis of 
Illinois. Strike Section 1014.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
     The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    This amendment strikes Section 1014. This provision 
requires a one-time transfer of data from contributing agencies 
to State election agencies for the purposes of registration. 
This provision takes the transgressions outlined in Section 
1013 and makes it retroactive, violating the privacy of those 
who have interacted with these agencies prior to the would-be 
enactment of H.R. 1.
    Additionally, large-scale transferring of individuals' 
information would certainly be done electronically, and that 
cannot be done without a risk that the personal information 
becomes compromised.
    Furthermore, there is no way to authenticate if data being 
transferred or transmitted is accurate. What if the data 
conflicts with other data on file?
    I support the passage of this amendment and yield back.
    The Chairperson. The gentleman yields back.
    I would urge a ``no'' vote on this amendment. As was 
discussed in the prior amendment, the effort is to allow all 
American citizens the opportunity to vote and, in order to do 
so, to be registered.
    I would note also that this is opt-out. So individuals who 
do not wish to be registered can opt out of this process and 
remain unregistered. And, with that, I would yield back.
    Does the gentlelady insist on her point of order?
    Mrs. Davis of California. No. Withdrawn.
    The Chairperson. She withdraws her point of order.
    On the amendment, unless there are further Members wishing 
to be heard, all those in favor will say yes.
    All those opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I would like another 5-2 vote.
    The Chairperson. The Ranking Member has asked for a 
recorded vote. The clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, five Members voting no, three 
Members voting yes.
    The Chairperson. The amendment is not agreed to.
    Does any Member seek recognition?
    Mr. Walker. Madam Chairperson, I have an amendment at the 
desk.
    The Chairperson. The gentleman is recognized.
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. A point of order is reserved. The 
amendment will be distributed, and the clerk will read the 
title.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1, offered by Mr. Mark Walker of North 
Carolina. In Section 1015(a)(2) of the bill, strike the period 
at the end and insert the following: ``, unless the individual 
made a false affirmation of United States citizenship.''
    [The amendment of Mr. Walker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Walker. Thank you, Madam Chairperson.
    This amendment strikes and replaces Section 1015(a)(2) and 
would allow States to alert authorities if someone knowingly 
certifies citizenship and is not a citizen.
    Under the scheme proposed in this section, noncitizens who 
knowingly certify U.S. citizenship and ultimately are 
registered to vote would be protected from prosecution or any 
other civil adjudication concerning immigration status.
    This provision would further handicap the efforts of 
Federal immigration officials and their missions to promote 
homeland security and public safety by enforcing immigration 
laws. To be clear, this amendment does not require States to 
turn over noncitizens for prosecution; it simply allows States 
to do so while not protecting those that represent their 
immigration status for the purpose of voter registration. I 
support the passage of this amendment and yield back.
    The Chairperson. The gentleman yields back.
    Does anyone else wish to be heard on the amendment?
    If not, I will say that I oppose the amendment for the 
following reasons: It is already illegal to do this. This 
amendment is unnecessary, and the protection that is written in 
the bill is to protect someone who without their knowledge was 
registered.
    If you were not eligible--and it is not just someone who 
lacks citizenship. Let's say you have another defect and, 
unknowing to you, you were registered, then you would not be 
held accountable. You would have to know in order to be held 
accountable for that error. I think that is just fairness.
    And, with that, I would yield back and ask if there are any 
individuals----
    Mr. Walker. I request the yeas and nays
    The Chairperson [continuing]. Who would--all those in favor 
will say yes.
    All those opposed, no.
    Mr. Walker. I request a recorded vote.
    The Chairperson. In the opinion of the chair, the noes have 
it, and a recorded vote has been requested----
    Mr. Walker. Thank you, Madam Chairperson.
    The Chairperson [continuing]. The clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    [No response.]
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, four Members are no, and 
three Members are yes.
    The Chairperson. The amendment is not agreed to. Does any 
Member seek recognition.
    Mr. Davis of Illinois. Yes. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. The gentleman--point of order is reserved. 
The amendment will be distributed, and the clerk will read the 
title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis of 
Illinois. Strike Section 1017.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman is recognized for five 
minutes on behalf of his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    This amendment strikes Section 1017. This provision 
authorizes $500 million for the purposes of implementing 
automatic voter registration. Let's be clear: Once again, we 
want everyone to have access to registering to vote. Nobody--
and I mean no one--who is eligible to be registered should be 
dissuaded from doing so. Let's be clear: Our system of 
government today when it comes to election registration is at 
its highest level of access. What this bill does is, it extends 
and puts a national footprint on the registration process that 
is working so well in this country today.
    This amendment would strike Section 1017, which authorizes 
$500 million in fiscal year 2019 to be spent on grants for 
States to create or update online voter registration systems, 
accelerate compliance with H.R. 1, public education campaigns, 
and automatic registration system enhancements. The grants 
would be awarded by the Elections Assistance Commission.
    Furthermore, it authorizes such sums as may be necessary 
each succeeding fiscal year and makes any money appropriated 
toward this authorization no-year money.
    H.R. 1 still does not have a score from the Congressional 
Budget Office, and because this section is so open-ended in 
terms of funding authorization, there is no way to tell how 
much this is going to cost. Additionally, we have worked with 
the House Budget Committee Ranking Member, Steve Womack, to try 
and get a score on H.R. 1, but have, to this point, have been 
rebuffed. This is fiscally irresponsible. I support this 
passage of this amendment, and I yield back.
    The Chairperson. The gentleman yields back.
    Are there additional Members who wish to be heard on this 
amendment?
    Does the gentlelady from California insist on her point of 
order? She withdraws her point of order.
    Let me just say: I oppose this amendment. There is no 
evidence whatsoever that the dollar amount proposed by the 
Ranking Member is necessary. In fact, all the evidence is that 
you save money with online voter registration. As I mentioned 
earlier, Arizona experienced a reduction in preregistration 
costs from 83 cents per registration to 3 cents per online 
registration.
    Now I know that the Democrats are sometimes thought of as 
the ones who want to spend money, but in this case, this is not 
a necessary thing to do. So I would urge the opposition to the 
amendment. Unless there is further comment, all those in favor 
of the amendment will say aye--oh, did you wish to be heard? I 
am sorry.
    Mr. Loudermilk. Point of order. Strike the record.
    The Chairperson. The gentleman is recognized for five 
minutes.
    Mr. Loudermilk. I would like to yield as much time as he 
may consume to the gentleman from Illinois.
    Mr. Davis of Illinois. Madam Chairperson, I want to correct 
something that I believe you said. I did not propose $500 
million be spent. $500 million is authorized in this bill. It 
is open-ended and without a Congressional Budget Office score, 
we need to know the impact of that to the taxpayers and to the 
Federal budget.
    We want to make sure that everyone has access to voting. 
Again, I cannot be more clear: We want everyone who is 
registered or can be registered to vote to have the ability to 
do so. We don't need to continue to wonder how much taxpayer 
dollars are going to be spent by putting a Federal fingerprint 
on this.
    The Federal Government has not done a good job of 
implementing any online voter registration system, and this 
bill, this section, is not limited to online voter 
registration. It is the entirety. Imagine, imagine, the cost of 
putting an online voter registration system together at the 
national level and the possible cybersecurity concerns, let 
alone the billions of dollars after the Federal contracting 
procedures that will have to be followed, would cause the 
taxpayers to have to foot the bill.
    I enjoy seeing many of my Democratic colleagues worry about 
the Federal debt and deficit when it comes to other pieces of 
legislation, but clearly, clearly, the cosponsors of this bill 
have not taken into any consideration the billions, possible 
trillions, of dollars that this bill would cost.
    And, with that, I yield back the balance of my time.
    Mr. Loudermilk. I yield back.
    The Chairperson. The gentleman yields back. Before calling 
the roll, I will note that I have every expectation that we 
will have a CBO score before this bill is heard on the floor. 
It is going through several committees, as we know, and 
amendments will be made in all of them.
    Does the gentlelady from California insist on her point of 
order?
    Mrs. Davis of California. No, I withdraw the point of 
order, but I would say, Madam Chairperson, if it is possible, 
to just note that----
    The Chairperson. The gentlelady from California is 
recognized for five minutes.
    Mrs. Davis of California. You know, in fact, we have a 
number of States that are enacting this kind of legislation and 
process. So it is possible to find out what that is costing, 
and we know, and, in fact, we are saving money as you have 
mentioned. I just wanted to--you know, the sense I get of some 
of these amendments is to really go backwards rather than 
forward. We have been going forward, and we want to continue 
that process.
    The Chairperson. Will the gentlelady yield back?
    Mrs. Davis of California. I yield back.
    The Chairperson. Then, on the amendment, all those in favor 
of the amendment will say aye.
    All those opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I request recorded vote, please.
    The Chairperson. A recorded vote has been requested, and 
the clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    [No response.]
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, four yeses and two noes.
    The Chairperson. The amendment is not agreed to.
    Does any Member wish to be recognized?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. The Ranking Member is recognized.
    Mr. Tucker. Can he reread the tally again? I think it was 
misreported.
    The Chairperson. I am sorry?
    Mr. Tucker. I think he said four yeses and two noes.
    The Chairperson. I don't think so. I think he said four 
noes and two yeses.
    The Clerk. Madam Chairperson, four noes and two yeses.
    The Chairperson. All right. The gentleman is recognized for 
five minutes. His amendment will be distributed, and the clerk 
will read the title----
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson [continuing]. A point of order is reserved.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1, offered by Mr. Rodney Davis of Illinois. 
Strike Section 1019(b).
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman from Illinois is recognized 
for five minutes on behalf of his amendment.
    Mr. Davis of Illinois. Madam Chairperson, before I get into 
this amendment discussion, I am glad you have let us know that 
this bill will be marked up in other Committees. I was under 
the impression that we could still possibly be voting for this 
bill very soon since the Speaker said we would vote by the end 
of this month. Since we are coming up to the end of this month, 
I certainly hope that other Committees will have the same 
process as we have to be able to offer amendments. Have you 
been assured by the Speaker that we will have markups in other 
Committees?
    The Chairperson. I expect regular order.
    Mr. Davis of Illinois. Great. That is good to hear. 
Previous statements by the Speaker have not given me the 
confidence. So good. Then that will give us a chance to have 
more discussions. This amendment strikes Section 1019(b). This 
provision allows third-party vendors to handle voter 
information. Aside from these provisions creating a nightmare 
of entanglement of Federal law for States and creating a mass 
amount of customer data vulnerable to cyber intrusion, this 
provision takes it a step further and allows third-parties to 
manage all the sensitive data.
    We have all heard countless news stories reported in recent 
times about private companies being hacked and, as a result, 
enormous amounts of data being compromised. Allowing this 
provision to stand would be inviting more of that.
    One of the top goals of H.R. 1, as stated extensively at 
the press conference announcing this bill, was to ensure 
security of the elections. How is allowing third-party vendors 
to handle voter information accomplishing that goal? I support 
the passage of this amendment, and I reserve the balance of my 
time.
    The Chairperson. Does any other Member wish to be heard on 
this amendment?
    The gentlelady----
    Mrs. Davis of California. Withdraw.
    The Chairperson [continuing]. Withdraws her point of order. 
If no other member wishes to be heard, I will simply urge a 
``no'' vote on this amendment. These entities are subject to 
the same privacy and security standards as any government 
agency. The amendment is not necessary, and I would urge a 
``no'' vote.
    Mr. Davis of Illinois. I yield back.
    The Chairperson. The gentleman yields back.
    All those in favor the amendment will say aye.
    All those opposed will say no.
    In the opinion of the Chair, the noes have it. And the noes 
have it.
    Does any Member wish to be heard?
    Mr. Davis of Illinois. I request a recorded vote.
    The Chairperson. The clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, five Members are no, and two 
Members are yes.
    The Chairperson. And the amendment is not agreed to.
    Does any Member wish to be--the gentleman is recognized.
    Mr. Loudermilk. Madam Chairperson, I have an amendment at 
the desk.
    The Chairperson. The gentleman is recognized for five 
minutes on behalf of his amendment. The gentlelady reserves a 
point of order. The amendment is being distributed, and the 
clerk will read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Barry Loudermilk of 
Georgia. Strike Section 1019(e).
    [The amendment of Mr. Loudermilk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman is recognized.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    One of the concerns that I have with this bill--there are 
many, many concerns I have, but one predominantly is the speed 
of which we are moving on such a major piece of legislation. We 
have 50 States. We have 50 Secretaries of State. We have 50 
Governors that this would have a huge--I repeat, a huge--
impact, not only on the way that they handle their elections, 
because there are more than just Federal elections--there are 
State elections; there are local elections; there are school 
board elections--that ultimately would be impacted by this 
legislation. This provision that we are amending here is one 
that could have a significant cost factor to the States.
    This amendment simply strikes Section 1019(e). The 
provision extends the private right of action under the NVRA to 
the previous sections. While this may be well intentioned, 
undoubtedly it will result in a huge number of civil litigation 
cases brought by election attorneys, which would put our States 
in the situation of having to defend against multiple--
multiple--potential lawsuits, not brought up necessarily by 
people but outside organizations.
    The provision is not designed to protect people. It is 
designed to create more business for special interest election 
attorneys and would inevitably not only cost the States, the 
counties, the cities, an enormous amount of money, but it would 
also clog up our court systems, which are already very busy in 
this country. With provisions like this included in H.R. 1, it 
does not appear to be For the People Act, but rather a ``For 
the Lawyers Act.'' I support passage of this amendment, and I 
yield back.
    The Chairperson. The gentleman yields back.
    Do any other members wish to be heard on the amendment?
    Mrs. Davis of California. I will withdraw my point of 
order.
    The Chairperson. The gentlelady from California withdraws 
her point of order. I would just note that voting rights 
provisions are almost entirely now enforced through a private 
right of action. That is true for previous sections. It will be 
true for these as well. I know that a right without a remedy is 
no right at all. So I would urge that we oppose the amendment.
    I would ask those who are in favor of the amendment will 
say aye.
    Those who are opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Loudermilk. I request a recorded vote.
    The Chairperson. The gentleman asked for a recorded vote, 
and the clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    [No response.]
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, four Members vote yes, and 
two Members vote no.
    The Chairperson. No. Four voted no and two voted yes.
    The Clerk. Madam Chairperson, four Members are no, and two 
Members are yes.
    The Chairperson. Thank you.
    Does any Member wish to be recognized?
    Mr. Davis of Illinois. I have an amendment at the desk, and 
I certainly would have taken that last roll call vote.
    The Chairperson. I know you would have.
    The gentleman is recognized, the amendment will be 
distributed.
    The gentlelady from California reserves a point of order, 
and the clerk will read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis of 
Illinois. Strike Section 1031.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson. This 
amendment strikes section 1031. This section would require 
same-day voter registration for all Federal elections. Same-day 
voter registration invites fraud and undermines the voter-
registration process. Even with certain safeguards in place, it 
is impossible to verify the eligibility of an individual in 
such a short period of time.
    Additionally, same-day voter registration can put an undue 
burden on poll workers who are typically already working 
extremely long hours and are often retirees.
    Matter of fact, another section of this behemoth 571-page 
bill recognizes that we have a shortage of poll workers and 
adding long lines because of same-day registration invites 
issues in poll worker shortages.
    Once again, Illinois has same-day registration. Somebody in 
my district with Illinois election authorities can walk in with 
something like a Jimmy John's receipt that is a proof of 
address, without any verification on that same day.
    In the midst of long lines, in the midst of poll workers 
being overworked, how in the world are they going to verify 
that that person is eligible to cast a vote in that district? 
That is why we have to have more safeguards in place. We want 
everybody to vote. We want everybody to be registered to vote. 
But in the end, we want to make sure those who are voting are 
voting in the districts that they are eligible to vote in. I 
support the passage of this amendment, and I will reserve the 
balance of my time.
    The Chairperson. The gentleman reserves the balance of his 
time. Actually, that is not something that we are used to doing 
under the five-minute rule.
    Mr. Davis of Illinois. I will yield back.
    The Chairperson. The gentleman yields back.
    Does the gentlelady insist on her point of order?
    Mrs. Davis of California. No. Withdrawn.
    The Chairperson. The point of order is withdrawn. Does any 
other Member wish to be heard on this amendment?
    I would urge a ``no'' vote on the amendment. You know, in 
the November 2016, general election, nearly one in five people 
who were eligible to vote but did not vote cited registration 
issues as the main reason for not casting a ballot. Demos, 
which has done a study of this, suggests that same-day 
registration increases turnout by upwards of 10 percentage 
points.
    The same-day registration provisions in Section 1031 would 
make registration straightforward. It provides that each State 
shall permit any eligible individual on the day of a Federal 
election and on any day when voting, including early voting, is 
permitted for a Federal election to register to vote in such 
election and to cast a vote in that election. Same-day voter 
registration is not an unvetted practice. It is already 
successfully in place in States across the United States, and 
according to the National Conference of State Legislatures, 17 
States and the District of Columbia already have same-day 
registration.
    The lack of same-day registration has a different impact on 
African American and Hispanic voters than it does on white 
voters. The Atlantic reports that more than 1 in 10 African 
Americans and Hispanics missed the registration deadline to 
vote in 2016 as opposed to just 3 percent of White voters. 
African American and Hispanic respondents were twice as likely 
as white respondents to have been unable to get time off from 
work for voting. So flexible provisions for voting, such as 
same-day registration, will increase access of diverse voters 
to the polls. According to recent polls, more than 60 percent 
of Americans support same-day registration.
    With that, unless there are further Members wishing to be 
heard, all those who are in favor of the amendment will vote 
aye.
    Those opposed will vote no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I request a recorded vote.
    The Chairperson. A recorded vote has been requested. The 
clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    [No response.]
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Clerk. Madam Chairperson, four Members voting no, two 
Members voting yes.
    The Chairperson. The amendment is not agreed to.
    Does any Member wish to be heard--yes, sir?
    Mr. Davis of Illinois. I think he said four no, two no.
    The Chairperson. No, he said four no, two yes.
    Mr. Davis of Illinois. Oh.
    Mr. Loudermilk. Madam Chairperson, I have an amendment at 
the desk.
    The Chairperson. The gentleman is recognized for his 
amendment for five minutes. The clerk will distribute the 
amendment, and the clerk will read the title. And the gentleman 
is recognized for five minutes on behalf of his amendment.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Barry Loudermilk of 
Georgia. Strike Section 1041.
    [The amendment of Mr. Loudermilk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman is recognized.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. A point of order is reserved.
    Mr. Loudermilk. As I mentioned regarding the last 
amendment, which, by the way, barely failed; I think we only 
lost by two votes. So we are getting close here, Ranking Member 
Davis.
    As the Ranking Member said, voting is a--almost a sacred 
thing in this country. We not only have to make sure that we 
extend every available opportunity for those who want to vote 
to be able to vote, but we also have to be able to protect the 
integrity of the voting system. And with 50 individual and 
unique States, 50 Governors, 50 Secretaries of State, countless 
numbers of county and city voting registrars, I don't know that 
we have reached out and we have gotten the feedback that would 
be necessary, in my opinion, to move forward with such a 
sweeping law that would affect every single State and every 
single voter.
    I think this is something we should pause; we should take 
careful consideration and get the feedback. I know my Governor 
and our Secretary of State has not had ample opportunity to 
read through such a large piece of legislation as I know my 
colleagues have not had ample opportunity to really work on it 
in a way that there is probably some areas in here we could all 
agree on.
    But this is one of those areas that, again, I am very 
concerned about. This amendment strikes section 1041. The 
section would place additional conditions that States must meet 
to remove registrants from voter rolls through cross-check 
systems. This section is broad. It is too broad in nature, and 
it puts additional burdens on States' already existing 
processes that work. Again, additional cost to States.
    I am sure we have some States that do a phenomenal job at 
this already, and there are probably some States that need some 
work on it. But the cost and the unfunded mandates that we are 
putting on the States through this bill, we don't know the 
impact it is going to have on the States. We don't know the 
burden it is going to place on the States. We don't know the 
impact it would have on the election processes in those States 
because there are more than just Federal elections that are 
held.
    The Electronic Registration Information Center and other 
interstate databases already serve as valuable and reliable 
tools for States to use if they choose to. While these cross-
check systems are not perfect, to limit their use is 
shortsighted. One of the comments we have heard most often from 
States is that they would love to utilize ERIC, but more can't 
due to cost. I don't know that this bill addresses that cost.
    Again, this is a huge, unfunded mandate that we are placing 
on 50 States, many of those which have struggled financially in 
recent years. What is the point of adding this data without 
methods of maintaining it in a way that does not compromise the 
integrity of the voting system? I urge my colleagues on both 
sides of the aisle to vote in favor of this amendment, and I 
yield back.
    The Chairperson. The gentleman yields back.
    Does the gentlelady insist on her point of order? It is 
withdrawn. Do other members wish to be heard on the amendment? 
If not, I will say that I hope that we will vote against this 
amendment. Cross-check is a system that has been used and 
studied for accuracy. The Brennan Center, one of the prime 
election centers of analysis, has found that cross-check is 
wrong 99 percent of the time.
    Illinois, the State of Illinois, just dropped this system, 
and more States are following suit because it disenfranchises 
voters. So I would hope that we can vote against this 
amendment.
    And those who are in favor, please say aye.
    Those who are opposed will say no.
    In the opinion of the Chair, the noes have it. And unless 
there is a request for a recorded vote, we will----
    Mr. Davis of Illinois. I request a roll call vote.
    The Chairperson. Mr. Davis requests a recorded vote, and 
the clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    [No response.]
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Clerk. Madam Chairperson, four Members vote no, two 
Members vote yes.
    The Chairperson. The amendment is not agreed to.
    Does any Member wish to be heard?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. The amendment will be distributed.
    The clerk will read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Davis of Illinois. 
Strike Section 1502.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. A point of order is reserved by the 
gentlelady from California.
    Mr. Davis is recognized for five minutes on his amendment.
    Mr. Davis of Illinois. Madam Chairperson, thank you.
    This amendment strikes section 1502. This provision 
requires the use of paper ballots in Federal elections.
    This bill preempts State laws as well as the historical and 
constitutional role of States and localities in choosing the 
method of voting for their citizens. This provision requires 
that paper ballots must be counted by hand, optical scanner, or 
other counting device, thus ending the use of many ballot 
marking devices that I will remind my colleagues the Federal 
Government paid millions upon millions of dollars for.
    We have not heard from States regarding this provision, nor 
voting equipment manufacturers. We have no basis for this 
proposal in this section of H.R. 1.
    We also have no idea what the cost associated with this 
provision will be. But it would almost certainly require the 
reworking or even rescinding of State contracts with election 
machine vendors, so I imagine the cost would be enormous. But, 
again, we do not yet have a CBO score on what H.R. 1 will cost 
taxpayers.
    I am concerned that proposals like this will bring us back 
to the days of Florida during the 2000 election. I support the 
passage of this amendment.
    And I yield back.
    The Chairperson. The gentleman yields back.
    Are there other Members who wish to be heard on this 
amendment?
    Does the gentlelady withdraw her--she withdraws her point 
of order.
    I would urge a ``no'' vote on this amendment.
    You know, eight national entities, including the FBI, the 
NSA, the Department of Justice, DHS, and others, confirmed the 
fact of Russian interference in the 2016 elections. Experts 
convened by the National Academy of Sciences, Engineering, and 
Medicine subsequently warned that election administrators 
should use human-readable paper ballots by the 2020 elections. 
That is so if there is an audit and there is a problem we can 
go and look and see what the voter actually intended.
    With over 40 States using 10-year-old electronic voting 
machines on out-of-date platforms like Windows 2000, which 
aren't even being updated or patched for security problems, 
paper ballots, so voters can check and verify their votes, are 
important.
    I would note also that the amendment in the nature of a 
substitute does not preclude optical scanners. It simply says 
there must be a paper ballot. It is anticipated, although not 
required, that States will in fact move to the optical scanner 
system that has a paper ballot that can allow for a recount if 
necessary.
    Without further discussion, all those who are in favor of 
this amendment will say aye.
    All those opposed will say no.
    And, in the opinion of the Chair, the noes have it.
    Mr. Loudermilk. I request a roll call vote.
    The Chairperson. There is a request for a recorded vote, 
and the clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    [No response.]
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. And Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, four Members vote no, two 
Members vote yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments to be offered?
    Mr. Davis of Illinois. Madam Chairperson, I have another 
amendment at the desk.
    The Chairperson. The gentleman is recognized.
    The clerk will distribute the amendment.
    The gentlelady is recognized for a point of order being 
reserved.
    The clerk will read the title.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1 offered by Mr. Rodney Davis of Illinois. 
Strike Section 1504.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    This amendment strikes Section 1504. This section requires 
standards for paper ballots.
    If we suppose that the paper ballot requirement proposed in 
Section 1502 is sound policy, there is still the question of, 
why these requirements for the paper ballot? Why not understand 
that we may not know what the best technology may or may not be 
in the future when it comes to protecting us from hacking 
attempts from foreign agents or anyone who may want to try and 
hack into election systems?
    We need to make sure that the election systems in this 
country have a paper trail, a paper trail, not prescribed 
mandates that would force new technology that could be safer in 
the future from being implemented, which is why we offered the 
amendment that just failed and which is why we are offering 
this amendment now.
    We have heard from no experts in this field. We have heard 
from no experts or a single State or local official regarding 
these requirements that are in this 571-page bill. But here we 
are trying to create a Federal mandate from Washington, D.C.
    I again remind my colleagues the Federal Government does 
not have a good track record of offering a cost-effective, 
secure data platform in other parts of our government. Why in 
the world, without proper vetting, without talking to the 
experts, why in the world would we decide to offer a mandate to 
our election officials right now, just assuming, assuming, that 
the Federal Government is going to get it right?
    We should really be consulting with these local and State 
election officials regarding any standards that are proposed in 
a 571-page bill. I support the passage of this amendment.
    I yield back.
    The Chairperson. The gentleman yields back.
    Do any other Members wish to be heard on the amendment?
    The gentlelady withdraws her point of order.
    Seeing no one, I would simply note that the arguments 
against this amendment are similar to those for the prior 
amendment. This strikes a provision that simply requires that 
the paper ballots can withstand multiple handlings that would 
then allow for accurate recounts if needed. And I would urge a 
``no'' vote on the amendment.
    With that, all those who are in favor of the amendment will 
vote aye.
    All those who are opposed will vote no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I would request a recorded vote.
    The Chairperson. There is a request by the Ranking Member 
for a recorded vote. The clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    [No response.]
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, four Members vote no, and two 
Members vote yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments?
    Mr. Loudermilk. Yes, Madam Chairperson. I know you are 
surprised. I do have an amendment at the desk.
    The Chairperson. No, I am not.
    The gentleman's amendment will be distributed.
    A point of order is reserved by the gentlelady from 
California.
    The clerk will read the title.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1 offered by Mr. Barry Loudermilk of 
Georgia.
    [The amendment of Mr. Loudermilk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
        
    The Chairperson. The gentleman from Georgia is recognized 
for five minutes on behalf of his amendment. The gentleman is 
recognized.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Again, I reiterate my concern of the lack of working with 
the 50 States and the secretaries of state and the governors on 
this. Even though I think this may be well-intentioned, again, 
there are unintended consequences.
    This amendment strikes Section 1601. This section requires 
States to count provisional ballots regardless of the precinct 
at which a voter tries to vote.
    Now, that sounds good on the surface, but, again, the lack 
of foresight is that our elections are more than just Federal 
elections. When you go to the ballot--or you go to a polling 
precinct in Georgia and you walk into there and you pull up a 
ballot, there of course are the Federal offices on there, but 
there are also State representatives, there are State senators, 
there are county commissioners, there are municipal elections 
that are candidates on there. Those are by precincts.
    It may be more convenient, if you are at work and you work 
40 miles away from your home, to go to a polling place that is 
near your place of business and to walk in there. Well, that 
may help with the turnout for Federal elections, but what you 
do is disenfranchise the voter from effectively voting in their 
local elections, which in most cases impact their lives more 
than the Federal elections. Especially in the State of Georgia, 
because of the system of government we have, we believe that 
the government closest to the people is the most effective.
    When you are going to force a State to allow someone to 
vote at a polling place that is not their home polling place, 
they will not have the accurate ballot, and it will 
disenfranchise them from voting on those elections that matter 
the most to them.
    I think, again, this is one of the areas that was well-
intentioned, but the unintended consequences would actually 
disenfranchise voters from their votes actually meaning 
something in those local, those State, and those municipal 
elections.
    I yield back.
    The Chairperson. The gentleman yields back.
    Does any other Member wish to be heard on this amendment?
    Mrs. Davis of California. Withdrawn.
    The Chairperson. The point of order is withdrawn.
    I would urge a ``no'' vote on this amendment.
    The Section 1902, titled ``Minimum Notification 
Requirements for Voters Affected by Polling Place Changes'', on 
page 138, line 20, provides effective measures to give voters 
information about their correct polling site.
    The section requires that notice of any changes arrive at 
least seven days in advance of the election and that, in the 
event of the State making the change fewer than seven days 
before the election, the State shall make every reasonable 
effort to enable the individual to vote on the date of the 
election.
    However, citizens should not be deprived of their right to 
vote in the statewide election because they have mistakenly 
ended up at the wrong polling place. Provisional ballots are a 
necessary and helpful backstop to ensure all eligible voters 
are heard.
    Providing for provisional ballots to be counted uniformly 
and in a nondiscriminatory fashion in H.R. 1 will not open the 
floodgates of provisional ballots. H.R. 1's other measures will 
provide a diverse array of options to vote, including early 
voting and vote by mail, so any discrepancies in registration 
can be caught early and remedied. Provisional balloting thus 
remains a useful last resort, not a first resource.
    Provisional voting is good for robust democracy and 
encouraging citizens to engage with voting. Provisional ballots 
protect the integrity of elections, as they are checked for 
eligibility after the provisional vote is cast, while also 
protecting the right of the voter to have that vote counted if 
they are in fact eligible.
    Provisional voting has built-in protections. After a 
provisional ballot is cast, election officials have time and 
processes to discern the eligibility of the voter and retain 
the opportunity to reject the vote if the voter was indeed 
ineligible to vote.
    A lack of provisional voting creates a far greater 
possibility of harm. A prospective voter who is eligible to 
vote could be turned away from the polls, losing their instant 
opportunity to vote and potentially even deterring future 
voting.
    So I would urge a ``no'' vote.
    All those in favor of the amendment will say aye.
    All who are opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I request a roll call vote.
    The Chairperson. The Ranking Member has asked for a roll 
call vote. The clerk will call the roll, please.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    [No response.]
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, four Members are no, and two 
Members are yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments to be heard?
    The gentleman from Georgia is recognized.
    Mr. Loudermilk. Thank you, Madam Chairperson. I have an 
amendment at the desk.
    The Chairperson. A point of order is reserved.
    The clerk will distribute the amendment. The clerk will 
read the title.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1 offered by Mr. Barry Loudermilk of 
Georgia. Strike Section 1611.
    [The amendment of Mr. Loudermilk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
        
    The Chairperson. The gentleman is recognized for five 
minutes on behalf of this amendment.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Again, I reiterate the swiftness in which this is moving 
forward without adequate consulting with our State governments 
on the impact it would have on them.
    I was in the State legislature in Georgia when we passed a 
law to allow for early voting. We thought it was a good 
proposition, and it has worked well in Georgia. Since we did 
that, the early voting law has been modified several times. The 
reason it was modified was to make it the best possible early 
voting system that fit the State of Georgia. It is different 
than early voting in other States. In fact, one of the things 
that the legislature did is saw that some people who were 
working five days a week were even having a hard time getting 
to the poll during the workday for early voting, so we amended 
it and added a Saturday, that there is a Saturday that the 
polls are open.
    The point I am getting to is that government governs best 
when it governs locally, the closest to the people.
    Every State is different. I lived in Alaska for 10 years, 
and in Alaska some people live in areas they can't physically 
get to a polling place.
    So every State is unique, every State is different, every 
State is autonomous, especially when it comes to the voting 
system. The States need to have the ability to tailor their 
voting, their early voting, to what maximizes voter turnout and 
access that is unique to that State, to that municipality, to 
that county.
    Again, this is big Washington bureaucracy trying to create 
a one-size-fits-all system for the entire State. The reason we 
have 50 States is because different geographical areas have 
different demographics, different, obviously, geographic--we 
are unique. We are not the United States as one big country; we 
are a unity of 50 individual States. Our State governments have 
a purpose, they have a reason. It is to meet the needs of the 
people of each State.
    I am all for giving voter access. I just believe the States 
can do a better job of tailoring voter access to their people 
than big government bureaucracy can.
    Right now, on customer service rankings, the Federal 
Government is dead-last of all industries, of all governments. 
The Federal Government is dead-last in customer satisfaction 
and customer service, and we are dead-last in efficiency. The 
State governments are well ahead of us in that.
    All we are going to do is drag down this system to another 
big government bureaucracy if we continue to do this huge 
Federal overreach. I believe we should leave this, especially 
the early voting aspect, to the decisions of the State 
lawmakers, the Governors, and our secretaries of State.
    I support passage, and I urge my colleagues to vote in 
favor.
    I yield back.
    The Chairperson. The gentleman yields back.
    Do other Members wish to be heard on the amendment?
    Mrs. Davis of California. Withdrawn.
    The Chairperson. The gentlelady from California withdraws 
her point of order.
    Other Members wish to be heard?
    I would urge a ``no'' vote on this amendment.
    You know, the provision in our bill sets a floor for early 
voting, and that is important, because millions of Americans 
are given only a single day to vote, Tuesday, a workday for 
most people, when voting will inevitably be squeezed in among 
errands and jobs, and some people can't get off to get to vote.
    Early voting in this section provides that each State shall 
allow individuals to vote in an election for Federal office 
during an early voting period which occurs prior to the date of 
the election in the same manner as voting is allowed on such 
date. The section provides for a period of consecutive days, 
including weekends, which begins on the 15th day before the 
date of the election or even earlier at the option of the 
State.
    This 15-day early voting period will not suppress turnout. 
It will work alongside other measures, like absentee voting and 
same-day registration, to ensure every voter has a chance to 
vote when it is possible for her, either by mail before 
election day at the polls or at the polls on election day. This 
is expanding the freedom to vote for our American citizens.
    States have proven that early voting works to meet voter 
needs. More than two-thirds of the States--that is 39--plus 
D.C., offer some form of early voting.
    Early voting works for diverse populations. That is why I 
believe it is under attack in some States. Consider a post-
Shelby 2013 law in North Carolina later struck down for 
targeting African Americans with, quote, ``surgical 
precision,'' unquote. That is what the Court of Appeals for the 
Fourth Circuit wrote. After learning that African Americans 
used early voting in greater numbers than white voters, North 
Carolina legislators changed their bill to eliminate the first 
week of early voting, eliminating one of two Souls to the Polls 
Sundays in which African-American churches provided 
transportation to voters.
    Protecting early voting protects the franchise for 
everyone. That is precisely why it is dangerous to those who 
want to see fewer people voting in some States.
    In-person early voting and absentee voting have 
administrative benefits. They ease congestion on election day, 
leading to shorter lines, improved poll-worker performance, and 
improved voter satisfaction. And they also allow for earlier 
correction of registration errors and voting system glitches.
    Early voting was one of the principal recommendations of 
the bipartisan Presidential Commission on Election 
Administration. It wrote, quote, ``Election officials from both 
parties testified to the importance of early voting in 
alleviating the congestion and other potential problems of a 
single election day,'' unquote.
    So I would urge a ``no'' vote on the gentleman's amendment.
    The gentleman from North Carolina is recognized for five 
minutes.
    Mr. Butterfield. Thank you very much, Madam Chairperson. I 
won't take the full five minutes. I want to thank you for the 
amendment in the nature of a substitute. I am beginning to read 
through it as quickly as I can.
    I want to just make an observation or two about Section 
1611, the early voting section.
    With respect to Section 306, paragraph--oh, I guess it 
would be (b)(1), that speaks to a minimum of four hours of 
early voting for each one of the early voting dates except for 
Sunday, and it appears it would authorize the States to have 
less than four hours on Sunday, I wanted to ask the 
Chairperson, is there a reason why we would want to reduce the 
number of hours on Sunday?
    The Chairperson. Well, the thinking was this: There are 
States that may want to have Sunday morning not part of the 
voting day. But you would still have four hours after church on 
Sunday----
    Mr. Butterfield. Thank you.
    The Chairperson [continuing]. For people to go.
    Mr. Butterfield. Thank you for answering that for me.
    The Chairperson. Certainly States could do more than four 
hours, should they wish.
    Mr. Butterfield. That helps me tremendously.
    Finally, further down on line 10, it speaks to requiring 
the polling place to be within walking distance of a public 
transportation route.
    I just want to say, for those of us from rural areas, some 
of our towns and cities don't have transportation systems in 
those cities. If we could just consider some language in the 
future that would simply say that the early voting site could 
be near populated communities in addition to transportation 
centers.
    Thank you. I yield back.
    The Chairperson. Mr. Davis is recognized for five minutes.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    I would like to echo the concerns my colleague from North 
Carolina has. I also represent a rural district.
    This shows once again that this bill is being rushed 
through this markup process. This bill is being rushed to the 
floor of the House for political reasons rather than actual 
good policy--good fiscal policy and good policies to ensure 
that everyone gets access to early voting.
    I personally participate in early voting. Three of the last 
four election cycles, I cast my vote early. I think it is a 
great process. But we have to make sure there are safeguards in 
place. And the Federal Government does not have a good track 
record of being able to implement systems from a top-down 
approach.
    The Federal Government still has not even given us, through 
Federal Government bean-counters, how much this bill is going 
to cost. Imagine: In many of the rural areas that Mr. 
Butterfield and I serve, how are the election officials going 
to pay for not only infrastructure improvements in their roads 
and their bridges, how are they going to dedicate now more 
resources to actually implementing provisions that were put in 
place by a law that was written by groups here in Washington, 
D.C., without any input or bipartisanship?
    It is very frustrating to me that this markup is being held 
after I and my colleague Mr. Loudermilk only had 15 minutes of 
time to ask questions to the panel that was put in front of us.
    Madam Chairperson, I don't blame you for that. I blame the 
fact that many here in your leadership team want to rush this 
bill to the Floor, and they want to ensure that this is a 
political message rather than good policy.
    I would like to yield the balance of my time to my 
colleague from Georgia, Mr. Loudermilk.
    Mr. Loudermilk. I thank the Ranking Member.
    I appreciate what Mr. Butterfield brought up because it 
goes back to the concerns I have of the Federal Government 
stepping in and doing a one-size-fits-all.
    As I said, I spent 10 years in the State of Alaska. I 
worked in the bush. I worked in a city that had a summertime 
population of about 50 and a wintertime population of about 15. 
There is a polling place in that city. There are 15 permanent 
residents there who vote in that election. Is this legislation 
going to put a cost burden on this city that has a polling 
place, with the population of 15 people, to where they have to 
open and maintain a polling location for 15 days prior to an 
election when pretty much everybody shows up within a 15-
minute-to-2-hour period on election day and they all cast their 
ballot?
    Again, because we are rushing this thing through, we are 
not considering and we are not asking the States their input on 
this. I believe that we are still uncovering unintended 
consequences that not only could suppress votes but be a huge 
cost factor to our municipalities and our States.
    I yield back to the Ranking Member.
    The Chairperson. Mr. Davis.
    Mr. Davis of Illinois. Madam Chairperson, thank you.
    Again, I certainly wish we had more time to debate this 
bill, just as much as this bill requires local officials to 
give for individuals to early vote, and we have not had that 
opportunity.
    I yield back.
    The Chairperson. The gentleman yields back.
    I would just note in response to the concern about the stop 
on a public transportation route, it says ``to the greatest 
extent practicable.'' That is the preamble. So, if there is no 
public transportation route, that would not be practical to 
have it.
    This was in response to the situation we found in Dodge 
City, Kansas. We had a young man who was a witness, where the 
polling place was moved, it looked like intentionally, to a 
place that was inaccessible even though there were accessible 
places.
    But for rural areas where there is no public 
transportation, obviously, that would not be practical and 
would not be required.
    If there are not further Members wishing to be heard, those 
who are in favor of the amendment will say aye.
    And those who are opposed will say no.
    In the opinion of the Chair, the noes have it.
    The gentleman from Illinois has requested a roll call. The 
clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    [No response.]
    The Clerk. And Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, four Members vote no, and two 
Members vote yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. The clerk will please distribute the 
amendment and the clerk will read the title.
    A point of order is reserved.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1 offered by Mr. Rodney Davis of Illinois. 
Strike Section 1621.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman from Georgia is recognized 
for five minutes on behalf of his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    This amendment requires voting by mail in Federal 
elections. We wish to strike this provision because this 
provision would force no-excuse no voting on every State and 
locality.
    Currently, 28 States have vote-by-mail programs, but these 
programs have been tailored to those States and their 
constitutions and their State laws. This provision would upend 
these schemes that have been put in place to provide access for 
people to vote in favor of a Washington-imposed one-size-fits-
all mandate.
    As we just saw with the debate over the last amendment, 
there are concerns that need to be addressed that have not been 
adequately vetted by the processes that have been put in place 
by the majority to get questions answered about the impact to 
local election officials. This one-size-fits-all mandate is not 
something that needs to happen.
    Additionally, this provision mandates that States verify 
identity through signature match. This requirement would 
preempt the law of many States--and I think this was 
intentional--that require witness signatures, photo ID, and 
non-photo ID or other ways of identification.
    This Committee has heard no evidence that signature match 
is the right way to confirm identity, and may in fact be the 
worst way, as a person's signature changes over time, while 
identification numbers, such as Social Security or driver's 
license, tend to remain the same.
    I will use me as an example. They know me in my polling 
place, thankfully, because a signature that I used when I 
turned 18 in Christian County, Illinois, is not the exact same 
signature that I use today that I am allowed to send franked 
mail with from this institution.
    I support the passage of this amendment.
    I will yield back.
    The Chairperson. The gentleman yields back.
    Does the gentlelady insist on the point of order?
    Mrs. Davis of California. No, I withdraw, but I would like 
to speak.
    The Chairperson. The gentlelady from California is 
recognized for five minutes.
    Mrs. Davis of California. Thank you, Madam Chairperson.
    You know what I am wondering here is, what excuse is 
justified or not justified? You know, what we have in hopefully 
more States than not, at least 30 States, that work with no-
excuse voting--and when we have spoken to people, our 
Secretaries of State, our registrars of voters, you know, we 
ask them about this. Generally these will just somehow end up 
in a drawer somewhere, and they are really not acted upon 
because you can't justify it. If you can think of some that are 
justified, you know, I am happy to hear that, but I think that 
that is really a problem.
    We also know that it invades privacy. My colleagues who are 
concerned about these issues, I hope that they would think 
twice about that. Because in some States they ask if someone is 
pregnant. What does that have to do with whether they are 
voting or not?
    The other thing we know is that, if people are going to be 
sick, they don't often know that they are going to be sick. So 
to get an excuse from the doctor doesn't make a whole lot of 
sense.
    I think we need to be certain, and that is why we are 
asking that there is, across the board, no-excuse opportunities 
for people to vote by mail. When you look at it, when you look 
at the cost, when you look at the verification, we know that 
requiring a signature check has worked and, in fact, they are 
updated. I know that because my husband was asked to update his 
signature.
    This is real for those States across the board that find 
this is what people want to be able to do because they can't 
get to the voting place all the time. And this gives them the 
opportunity, the privacy at home to be able to think through 
what is on the ballot and be able to act accordingly.
    So I think we need to turn this down, reject this 
amendment. Because if you go to people--and I remember one of 
our colleagues here a number of years ago had asked, should we 
take away the ability to vote by mail? I think everybody who 
has voted by mail would tell you no. It is almost as foolproof 
as voting can be.
    I really do hope that we will reject this one.
    Thank you, Madam Chairperson.
    The Chairperson. The gentleman from Georgia is recognized 
for 5 minutes.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    I totally agree with my colleague. Georgia has implemented 
a no-excuse, no-reason absentee voting system. My objection, I 
believe Representative Davis's objection, to this is the 
signature aspect only. Because, as he pointed out, his 
signature has changed significantly since he was 18 years old.
    Mr. Davis of Illinois. Longer than that.
    Mr. Loudermilk. I mean, it was like an ancient time for 
him.
    Again, it could disenfranchise voters if you don't allow 
the States to use the security that the best way of ensuring 
the person that is sending in the ballot is the person who 
actually filled out the ballot. And a signature, in most cases, 
is not a valid enough reason. It opens it up for too much voter 
fraud, which disenfranchises the very people that we are trying 
to protect in the voting system.
    I will yield whatever time my colleague may need.
    Mr. Davis of Illinois. Thank you to my colleague and 
friend, Mr. Loudermilk.
    Mrs. Davis, we want to make sure that vote by mail is 
utilized in a manner throughout this Nation. It is utilized in 
States like Georgia, California, Illinois, and others, and many 
take advantage of the no-excuse system.
    The problem we have, again, is Washington--this bill is, 
again, being used to usurp already-working State policies and 
procedures. I don't believe that is our job as Federal 
officials, to stop what is working in States and ask for a top-
down approach.
    To my colleague, Mrs. Davis, she mentioned that she has 
been in contact with many local and State election officials. 
Clearly, that has not been a part of the hearing and markup 
process here. We invited Washington's Secretary of State, and I 
got to ask her just a few minutes of questions. We clearly did 
not--and we got five minutes of written testimony. We clearly 
have not vetted this with local and State election officials.
    Again, I don't believe this rush attempt to move a 571-page 
bill with zero Republican input in drafting this bill, I don't 
believe it is the fault of my colleagues on this Committee. I 
believe it is political messaging by the leadership of the 
majority that wants this bill to be pushed through.
    We don't know what the cost of this bill is going to be. We 
don't know what the final rules and regulations could or could 
not be. Concerns were brought up by both Republicans and 
Democrats in many provisions.
    I would certainly hope that this amendment, any amendment, 
any of our amendments that were offered in good faith--there 
aren't any ``gotcha'' amendments here. These are amendments 
that were offered to help fix the bill. I would certainly hope 
that my colleagues on this Committee would realize that there 
need to be fixes in place.
    We are not going to be given the opportunities to put these 
fixes in place because of the process that I believe is at your 
leadership level and not at the level of this Committee.
    The Chairperson. Does the gentleman yield back?
    Mr. Loudermilk. I yield back.
    The Chairperson. I will recognize myself for five minutes 
and yield to Mrs. Davis for final comment.
    Mrs. Davis of California. Thank you, Madam Chairperson.
    I just wanted to go back to the question that I asked 
earlier, if we can think of any excuse that would be 
acceptable. And that, in fact, we have a history in all these 
States that has worked very well. And there really has been 
nothing that has been stated that questions the ability of 
people to do this and to have no excuses.
    The Chairperson. Reclaiming my time, I would note, just 
before we go to a vote--and then we will go to the floor--that 
there are substantial due-process elements in the bill to 
prevent for mistakes when it comes to signature verification.
    And, with that, I would ask for the yeas and nays on the 
amendment.
    All of those who are in favor of the amendment will say 
aye.
    Those opposed will say nay.
    In the opinion of the Chair, the nays have it.
    A roll call is requested. The clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    [No response.]
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    [No response.]
    The Clerk. And Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, four Members are no, and two 
Members are yes.
    The Chairperson. The amendment is not agreed to.
    The Committee will stand in recess until after the votes on 
the Floor. I think we are about 9 minutes from close of votes. 
We will return immediately after the votes on the Floor.
    We are in recess.
    [Recess.]
    The Chairperson. The vote on the Floor is over, and the 
House Administration Committee will reconvene at this point.
    When we departed for votes, we were in the process of 
considering amendments, and we will return to that process at 
this point.
    Are there Members who wish to offer an amendment?
    Mr. Davis of Illinois. Yes, Madam Chairperson. I have an 
amendment at the desk, Davis Amendment 13.
    The Chairperson. All right. The clerk will provide the 
amendment.
    Mrs. Davis of California reserves a point of order.
    The clerk will read the title.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1 offered by Mr. Rodney Davis of Illinois. 
Strike Section 1802.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Davis of Illinois. Madam Chairperson, I know that we 
need more poll workers, and this is a provision that--1801 
grants Federal employees six days of paid vacation to serve as 
poll workers. I support measures to increase those numbers, but 
using taxpayers dollars to take Federal workers away from their 
duties is not the way to do it.
    We just went through the longest government shutdown in 
history. How in the world can we say to those essential 
employees who were working hard every day that now you are 
going to get six more days off?
    I have Federal prison workers in my district that can't 
hire enough prison guards at the Federal prison in Greenville, 
Illinois, because salaries aren't competitive enough right now. 
How are they going to staff--how are they going to staff very 
important parts of our Federal agencies when we are telling 
agencies they have to give six days off?
    Allowing Federal workers to take paid leave away from their 
jobs will impact that level of service the agencies they work 
for can deliver. And, also, imagine veterans needing assistance 
from the VA and that service being delayed because Veterans 
Affairs workers are being paid to work at the polls.
    There is nothing to stop a Federal employee from 
volunteering on their own time if they wish to do so.
    Also, my home State of Illinois, every general election, 
every State worker gets the day off. I argue, out of the 18 
districts in Illinois, I represent the most State workers, and 
we still, especially in the rural areas of my district, we 
still have a problem getting poll workers.
    We do a lot of pilot projects around here in Washington, 
D.C., and in Congress. Let's look at Illinois as a pilot 
project. It doesn't work there, and it is not going to work 
here.
    However, I am going to withdraw this amendment, as Section 
1801 is the primary jurisdiction of the Oversight and 
Government Reform Committee.
    The Chairperson. Would the gentleman suspend for a minute?
    Mr. Davis of Illinois. Yes.
    The Chairperson. The written amendment says 1802, but I 
think it was your intent to do 1801, correct?
    Mr. Davis of Illinois. I would like to make a clerical 
change, yes.
    The Chairperson. Okay. With unanimous consent, the 
amendment will be altered to reflect ``strike Section 1801.''
    Mr. Davis of Illinois. I appreciate the Chairperson's 
diligence and patience, and I promise no one behind me will be 
fired for it.
    The Chairperson. Good.
    Mr. Davis of Illinois. I withdraw the amendment.
    The Chairperson. All right. The amendment is withdrawn. It 
is not within the jurisdiction of the Committee.
    The Chairperson. Are there further amendments that Members 
would like to offer at this point?
    The gentleman is recognized.
    The clerk will distribute the amendment. The clerk will 
read the title of the amendment.
    Mrs. Davis reserves a point of order.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1 offered by Mr. Barry Loudermilk of 
Georgia. Strike Section 1811.
    [The amendment of Mr. Loudermilk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. The gentleman is recognized for five 
minutes.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Again, our efforts here are to try to avoid, as this 
massive piece of legislation rushes its way through the 
process, to try to avoid any unintended consequences that, 
again, I think disenfranchises voters.
    This amendment would strike Section 1811, which is a 
provision that creates a private right of action for private 
plaintiffs to sue under title III of the Help America Vote 
Act--HAVA, which includes a multitude of ways a plaintiff could 
argue he or she was aggrieved.
    Now, I think the intention here is good, but from the 
experience that we have had in previous elections, especially 
in the last election cycle and especially in Georgia, I can 
tell you that the voters out there are really sickened by 
politics these days, especially--I have had many come to me and 
say, what does it matter if I go to the polls and it is going 
to be up to the courts to decide who won? What value is my 
vote?
    I believe this is just going to weaponize the candidates 
who don't like the outcome of the election to be able to take--
I mean, I think a good example was something that was brought 
up earlier, something Mr. Butterfield brought up and, Madam 
Chairperson, you brought up, that the language of the bill 
states ``to the greatest extent practicable'' when it comes to 
where polling places are going to be located near public 
transit. Well, who is defining what ``the greatest extent 
practicable'' really means? That is going to be a judge 
somewhere in a court somewhere, and you are going to empower 
trial lawyers to be able to sue if somebody doesn't like the 
outcome of an election.
    I think it is going to be counterproductive to what we are 
doing because this is disenfranchising the voters, and it takes 
away the power of the ballot away from the voter and hands it 
to lawyers. If you don't like the outcome of the election, find 
somebody who can come up and say, well, I don't think the 
polling place was put at the greatest extent practicable. 
Somebody is going to find that--some lawyer somewhere is going 
to take that case up and take it to the courts, and we are 
going to have the courts deciding elections, not the people. I 
think we need to empower the people, not the courts and not 
trial lawyers.
    Again, I don't think we have run this through a proper 
vetting. Have we talked to the courts? Can they handle a 
greater load of cases? Right now, I have a family member who 
has been involved in a traffic accident and now is in the 
second year of just trying to get a court date to deal with an 
insurance settlement because the courts are backed up.
    I think that this has good intentions. I think it is a lot 
of unintended consequences. Again, this would disenfranchise 
the voters and take away the power of the ballot and hand it to 
trial lawyers.
    I yield back.
    The Chairperson. The gentleman yields back.
    Do additional Members wish to be heard on this amendment?
    If not, I would urge a ``no'' vote on the amendment.
    Actually there is a right of action. This does not create a 
new cause of action. It merely allows aggrieved parties to also 
have a right of action. The Attorney General has the right to 
sue already.
    A private right of action is necessary for justice, and 
this has been discussed earlier today. Most enforcement of 
voting rights law today is done by aggrieved citizens. And with 
so few election officials willing to stand for them, I don't 
think we can depend on the Attorney General to bring 
enforcement actions. Unfortunately, we have seen that.
    As I said this morning, a right without a remedy is 
actually not a right. So I think this is an important provision 
of the act, and I would urge opposition to the amendment.
    Unless there are further comments, all those who are in 
favor of the amendment will say aye.
    Opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Loudermilk. I request a roll call vote.
    The Chairperson. A vote has been requested. The clerk will 
please call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Aye.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, six Members vote no, and 
three Members are yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. The clerk will distribute the amendment. 
The clerk will read the title.
    And Mrs. Davis reserves a----
    Mrs. Davis of California. I reserve a point of order, 
please.
    The Chairperson [continuing]. Point of order.
    Mrs. Davis of California. Thank you.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1 offered by Mr. Rodney Davis of Illinois. 
Strike Section 1901.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    This amendment strikes Section 1901. This provision 
expresses the sense of Congress that students would be allowed 
to establish a second residency.
    This would allow college students to establish a second 
residency, which is just another example of this bill weakening 
the voting system and increasing the election system's 
vulnerability to fraud while again failing to implement the 
necessary and basic verification measures on who is registering 
to vote.
    This provision opens a huge door to voter fraud by allowing 
students to vote at their university without any change in 
their legal residency or creating any mechanism for removing 
them from the voter rolls at their legal residence. Under this 
provision, students could vote absentee at their legal 
residence and vote in person at their university.
    Look, I have twin 18-year-old boys. They don't always make 
the best decision. They are going to be going to college next 
year, and what if they thought it was great to vote at home for 
their dad and also vote at school for their dad? What it would 
get them and what it would get any other student who did this 
is prosecuted. I don't believe that is the intention of this 
provision, but that could be the end result.
    In my home State of Illinois, also, for example, the 
requirements imposed by the State for somebody to prove that 
they are part of the university community are so lax that at 
colleges in my district you can meet the qualifications for 
proof of residency by presenting an emailed receipt from Jimmy 
John's.
    There is no other population of people that gets the option 
to be registered in two locations. I certainly would hope that 
my colleagues would feel the same about extending this same 
option to members of the military.
    This is yet another provision of this bill that impedes on 
States' rights to determine their own registration and voting 
practices, as protected under Article I, Section 4 of the 
Constitution.
    I support the passage of this amendment.
    I yield back.
    The Chairperson. Before I call on the gentleman from 
Maryland, I would like to say I think the amendment relies on 
an incorrect reading of the amendment in the nature of a 
substitute.
    State law already allows students to choose their domicile. 
This merely provides a sense of the Congress that rearticulates 
existing law. It doesn't create a new right for students.
    Mr. Raskin is recognized for five minutes.
    Mr. Raskin. Thank you, Madam Chairperson.
    I was just simply going to make the point that the 
Chairperson just made. I think this question was settled in the 
1960s and 1970s in a series of cases called the college student 
voting rights decisions, where there were challenges to 
restrictive efforts by States to keep students from voting at 
their college campus. There was a parallel set of cases dealing 
with military servicemembers. The Texas case, I recall, was 
called Carrington v. Rash.
    In all those cases, the Federal courts and the State courts 
said that it is essentially an optional question for the voter, 
whether to choose as their voter domicile their college 
residence or their residence as a member of the military or 
their original place of residence, overriding precisely the 
kinds of objections that we just heard from Mr. Davis.
    So it is really up to the person to decide. I don't read 
anything in H.R. 1 to try to give people the right to vote in 
two places at once. The dilemma that Mr. Davis's sons face 
about where they should register to vote exists today. They can 
decide today whether to vote on campus or to vote back home.
    Since you have twins, one could vote at home and one could 
vote on campus, and that is perfectly Constitutional and legal, 
because domicile is referred by virtue of physical presence 
with intention to remain at least for the time being. And the 
people get to decide basically where they want to do it.
    The Chairperson. Would the gentleman yield?
    Mr. Raskin. Yes by all means.
    The Chairperson. You know, it is worth noting voting twice 
is illegal. It is illegal now; it will be illegal after 
hopefully this bill becomes law. This doesn't change it.
    Are there additional Members wishing to be heard?
    The gentleman from Georgia.
    Mr. Loudermilk. Thank you, Madam Chairperson. I would like 
to yield to my good friend from Illinois.
    Mr. Davis of Illinois. Look, I appreciate the comments, 
Chairperson Lofgren, and my good friend, Mr. Raskin. But, 
looking at the legislation, I do believe that this causes 
confusion, and I do believe it could lead to the determination, 
when this law is implemented, that college students will be 
able to choose their domicile, as of today, at their university 
while also keeping their domicile at home, thus increasing the 
opportunities for somebody to make a bad decision and try and 
cast two votes.
    I don't believe that is the intent of what you want in this 
bill, but the way the bill is written, I believe that is the 
intent that you absolutely have right now.
    So this is another reason why a 571-page bill should not be 
rushed through. I have had 15 minutes of questions with two 
panels that I have been able to ask the witnesses. The same for 
my colleagues here. This is not the process that we call 
regular order. This is a rushed process that leads to many 
questions and many debates that we may have throughout further 
provisions in this bill.
    I would certainly hope that if a provision in a sense of 
Congress is being asked to be given to not just college 
students, let's make sure we express a sense of Congress that 
we also want to make sure that we protect from any possible bad 
decisions that someone will make. And let's also maybe express 
a sense of Congress that we afford this same ability to our 
members of the military.
    So these are the issues that have to be addressed, and they 
are not being addressed because this bill is being pushed 
through to get a vote, to send a political message, and not 
enact good policy.
    I yield back.
    Mr. Loudermilk. I yield back.
    The Chairperson. Do additional Members wish to be heard?
    If not, on the amendment, those who favor the amendment 
will say aye.
    Those who oppose will say nay.
    In the opinion of the Chair, the nays have it.
    Mr. Walker. I request a recorded vote.
    The Chairperson. A recorded vote is requested. The clerk 
will call the roll, please.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report, please.
    The Clerk. Madam Chairperson, six Members are no, and three 
Members are yes.
    The Chairperson. The amendment does not prevail.
    Are there additional amendments?
    Mr. Loudermilk. Madam Chairperson.
    The Chairperson. The gentleman from Georgia is recognized.
    The amendment will please be distributed.
    And Mrs.----
    Mrs. Davis of California. Point of order.
    The Chairperson. Mrs. Davis reserves a point of order.
    The clerk will please read the title.
    The Clerk. Amendment to the amendment in the nature of a 
substitute to H.R. 1 offered by Mr. Barry Loudermilk of 
Georgia. Strike Section 1904.
    [The amendment of Mr. Loudermilk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Again, because of the speed that this thing is being pushed 
through, I can see numerous unintended consequences, but, in 
this case, I think this may be an intended consequence, to 
undermine what many States have spent many years in the 
legislation and debate to protect, the integrity of their 
voting systems, to ensure that only those who have the right to 
vote and legally can vote vote. Because whenever someone 
fraudulently votes in an election, it discredits those who have 
legally cast their vote.
    Now, what this amendment does, simply strikes Section 1904, 
which is a provision that allows for a sworn statement of 
identification to be in place of an actual ID that is required 
by many States.
    Again, I go back to: The States are the closest to the 
people. The States know what is best for the populations that 
they represent, for their citizens. And many States already 
have a voter ID law in place. This would circumvent that and 
simply go to a sworn statement.
    I was at a convenience store during this last recess, and a 
gentleman, probably about my age, that was in front of me went 
up to buy a packet of chewing tobacco, or chaw, as they call it 
in Georgia. A guy about my age. You know what the clerk did? He 
asked for his ID because the law says you have to be 21 to buy 
tobacco in the State of Georgia, and that clerk had to check 
his ID.
    In the State of Georgia, it has been required that you have 
to show an ID to get your ears pierced, to show that you are of 
age.
    This would undermine something that is of much greater 
importance than either one of those, is to prove you are who 
you are and that you are allowed to vote.
    Now, in Georgia, we do have provisional ballots that are 
available. If you don't have your ID, they will let you vote on 
a provisional ballot.
    I can see that there is a multitude of issues that will 
come up here, especially when we go back to the last amendment 
that I proposed, to where, if now we have people who are coming 
up and they are just doing a sworn statement that they are who 
they say they are and they are allowed to vote and it turns out 
they are not, you know, what do you do then? Do you kick their 
votes out? Then does somebody go and find a lawyer and sue 
against that?
    I mean, I think that we need to slow this process down. 
More importantly than that, we need to take this to the 
governors, to the Secretaries of State, have input from the 
States, not just simple hearings in a State that a few people 
are invited to, but actually have those who have been elected 
to represent the people of those States who are going to bear 
the cost. They are going to bear the legal costs. They are 
going to bear the cost of implementing this.
    And, also, we are overriding those things that the States 
have done effectively well.
    With that, I yield back.
    The Chairperson. The gentleman yields back.
    Are there additional Members who wish to be heard?
    The gentlelady from--first, does the gentlewoman from 
California insist on her point of order?
    Mrs. Davis of California. Point of order withdrawn.
    The Chairperson. It is withdrawn.
    The gentlelady from Ohio is recognized for five minutes.
    Ms. Fudge. Thank you very much, Madam Chairperson.
    You know, I hear a lot of discussions about voter ID laws. 
Let me just suggest to the gentleman from Georgia that buying a 
pack of cigarettes is not a constitutional right; voting is. 
You cannot compare the two things. Voting is a right. It is in 
the Constitution that we read in this building all the time. 
Buying a pack of cigarettes is not, going to a movie is not, 
getting on an airplane is not. And so I think you cannot make 
an argument--I mean, I guess you could--but it certainly 
doesn't make a lot of sense to me that you would compare 
something as simple as a child going to get a pack of 
cigarettes to the right to vote.
    I yield back, Madam Chairperson.
    The Chairperson. The gentlelady yields back.
    Would additional Members like to be heard on the amendment?
    The gentleman from North Carolina is recognized for five 
minutes.
    Mr. Walker. I will yield my time to Mr. Loudermilk.
    Mr. Loudermilk. I thank my friend from North Carolina. You 
make a very good point. That is why it is so much more 
important to ensure that the person voting does have a right to 
vote, not someone who doesn't have a right to vote, showing up 
to vote, and circumventing their right that their voice be 
heard in this government. You are making the argument that I am 
making, is, it is much more important that we ensure that those 
who should be voting are the ones who are voting, and the only 
way to do that is with proper ID.
    I yield back.
    The Chairperson. The gentleman yields back.
    I would urge a ``no'' vote on this. As we know, voter ID 
laws have deprived many voters of their right to vote. They 
reduce participation and they prevent many Americans from 
participating in the democratic process. Studies have shown 
that as many as 11 percent of eligible voters do not have 
government-issued photo ID, and that percentage is even higher 
for students, people of color, people with disabilities, low-
income voters, and students.
    Many citizens find it hard to get government photo IDs, 
because the underlying documentation, like birth certificates, 
is often difficult or expensive to come by.
    I would note that also, in-person voter fraud is 
exceedingly rare. A recent study found that from 2000--the year 
2000 to 2014, there were only 31 Federal allegations of voter 
impersonation, the only type of fraud that photo IDs could 
prevent, during a period in which over 1 billion ballots were 
cast.
    These voter ID requirements do have a partisan effect. I am 
not going to go into all of that. I am not--if you take a look, 
for example, in the State of Texas, voter ID, your gun permit 
is accepted but the University of Texas ID is not. I think that 
that is an example of the pernicious impact of these voter ID 
laws that so often prevent people from--who have a right to 
vote from exercising that right.
    I will just close with this. One of the things that upset 
me more than any other report was a World War II vet went out, 
served his country in World War II, the greatest generation. He 
is very old, he doesn't have a driver's license, he is too old 
to drive. He didn't have a photo ID and so he could go and say 
he fought the Nazis, but he couldn't vote on Election Day. That 
is what voter IDs will do.
    So unless there are additional Members who would like to 
speak, those who favor the amendment will say aye.
    Those who are opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Loudermilk. I request a recorded vote.
    The Chairperson. A recorded vote has been requested. The 
clerk will please call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, six Members have voted no, 
and three Members have voted yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments?
    Mr. Walker. Madam Chairperson, I have an amendment at the 
table.
    The Chairperson. The clerk will please distribute the 
amendment. Mrs. Davis reserves a point of order, and the clerk 
will read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Mark Walker of North 
Carolina, in title I of the bill redesignate----
    The Chairperson. I would ask unanimous consent that the 
reading of the amendment be dispensed with.
    [The amendment of Mr. Walker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Walker. Thank you, Madam Chairperson.
    This amendment would add a new subtitle to the bill, 
prohibiting the practice of ballot harvesting. Ballot 
harvesting is the practice in which organized workers or 
volunteers collect absentee ballots from certain voters and 
then drop them off at a polling place or election office. While 
this process seems innocuous at first, it has been used to take 
advantage of voters and has been severely abused by political 
operatives, really, throughout the country.
    Most recently, we saw a new election ordered in North 
Carolina's Ninth Congressional District because of ballot-
harvesting allegations. In California, this practice is legal, 
and we saw it affect multiple races. Valadao was up six points 
on election day and lost 3 weeks later. Young Kim was up by 
8,000 votes and then lost by 5,000 votes. One more example was 
Jeff Denham lost because of the 57,000 vote-by-mail ballots 
cast and counted after election day.
    This amendment prohibits the practice of ballot harvesting, 
while allowing for commonsense exceptions for the disabled and 
elderly, of course. I support the passage of this amendment, 
and I yield back.
    The Chairperson. The gentleman yields back.
    Are there----
    Mrs. Davis of California. I withdraw my point of order.
    The Chairperson. Mrs. Davis withdraws her point of order.
    Are there other members who wish to be heard on this 
amendment?
    Yes, Mrs. Davis.
    Mrs. Davis of California. Well, I think you have offered a 
number of examples, and I appreciate that, but I think that we 
know that ballot harvesting, as you are thinking about it, is 
not the fact that people are allowed to cast absentee ballots 
up until election day. That is legitimate in the State of 
California. It also means that we are allowing as great an 
access as possible to the electorate. This actually--while we 
don't want to have the kind of situation that happened in North 
Carolina--and obviously, there is going to be another election 
there at the same time, the way that these activities have 
continued with people being in control of their ballots, should 
not be confused with this issue of ballot harvesting.
    I yield back.
    The Chairperson. The gentlelady from California yields 
back.
    Mr. Davis, do you wish----
    Mr. Davis of Illinois. Madam Chairperson, thank you.
    The Chairperson. You are recognized for five minutes.
    Mr. Davis of Illinois. Rest assured this issue has to do 
with ballot harvesting. We have just recently seen that there 
is possibly criminal behavior in North Carolina. We have a new 
election because election officials said there could be 
possible fraud. Now, I hate to break it to anybody, but that is 
just not going to be relegated to North Carolina.
    The problem we have is, the process that is illegal in 
North Carolina that was ripe with fraud, is legal in other 
States. McCrae Dowless, who could possibly go to jail in North 
Carolina, would be walking free in California for what he did. 
That is wrong. He could be walking free in other States. That 
is wrong.
    If we are going to try and federalize every other part of 
the election system in this country with this 571-page bill 
that we have no input in as Republicans, then why in the world 
wouldn't you want to federalize a process that has been 
possibly criminal in one State? We have seen the impact. We are 
having a brand-new election. There were--millions upon millions 
of dollars are going to be put back into the political system 
that made my colleagues in this chamber say you want to get 
money out of politics. So why in the world, if you want to 
federalize everything else, why wouldn't we stop this process? 
Because it is ripe for possibilities of fraud, and everybody 
sitting on this dais knows that.
    What is illegal and what is criminal in another State, and 
we have seen it--you can't close your eyes and say you did not 
know that it could happen somewhere else. That is wrong. That 
can affect the outcomes of the elections. I want fair elections 
for everyone. I want everyone to know that they can cast a vote 
and it is going to be counted fairly.
    We saw what happens when people criminalize this process. 
Not everyone--I know it is a shock to people in this room, not 
everyone in the election process is a do-gooder like all of us 
sitting here at this table. There are bad people, and bad 
people are going to take advantage of bad processes. This is 
wrong in North Carolina; it ought to damn well be wrong in any 
other State in this Nation. And if we are serious about 
elections and elections being fair, then this amendment should 
pass. And I would certainly hope that my colleagues on the 
other side of the aisle would recognize this.
    I yield back.
    The Chairperson. The gentleman yields back.
    Are there additional Members who would like to be heard on 
the amendment?
    Mr. Aguilar. Madam Chairperson.
    The Chairperson. Mr. Aguilar is recognized for five 
minutes.
    Mr. Aguilar. I will take the bait, Madam Chairperson.
    You know, what we saw--and I appreciate the gentleman from 
North Carolina bringing this to the forefront. He has seen in 
his State, let's just call it what it is, it was election 
fraud, and it was meant to skew the outcome of an election. But 
make no mistake, other processes in other States, their 
intention is to count every ballot, and that should be the 
intention of this Committee. It should be the intention of 
every individual who casts a vote, is to have their ballot 
counted.
    Let's not conflate the two: widespread election abuse that 
we saw in North Carolina versus having an ability to cast your 
absentee ballot on the day of the election and having it 
counted. I don't care how many votes you were up on election 
night or where you went to bed and you were winning and you 
ended up losing. What matters is, is every vote counted. That 
is what this Committee has the obligation to discuss. That is 
what this piece of legislation does. Let's not conflate the 
two, and let's not add issues that don't exist.
    So where there is election abuse and fraud, individuals 
should--can and should be prosecuted. And whether that is in 
any State, my home State or in North Carolina, individuals 
should be prosecuted if they don't play by the rules. And I 
trust that that will be the case.
    But at its peak, we need to ensure that every ballot is 
counted, and that is exactly what other States have done. There 
has been no reported abuse. And if there are evidence of 
abuses, individuals should be held accountable, and I look 
forward to my colleagues on the other side raising those 
issues.
    I would like to yield my remaining time to Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Aguilar.
    You know, I am really kind of shocked by those comments. It 
is judge and jury by innuendo. I think in California, there is 
no attempt to fill out other people's ballots and to go house 
to house and pick them up. People are receiving absentee 
ballots. They can be encouraged by family members or others to 
vote, to get their votes in. We do it, you know, on television. 
You know, please, you know, mail in your absentee ballots. But 
that is a very different process.
    I think we really don't want to go there, because access is 
one thing, but fraud is something very different, and that is 
what will--that is what a jury and a judge can decide in North 
Carolina. That doesn't mean that everybody else is under that 
same auspices.
    The Chairperson. The gentlelady yields back?
    Mr. Aguilar. I yield back.
    The Chairperson. Do other Members wish to be heard?
    The gentleman from Georgia is recognized for five minutes.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Obviously, this is one of those issues that--I mean, from 
the--from what I am hearing here is that it is okay if you are 
in a Democratic State, but it is not going to be okay if you 
are in a Republican State. I mean, this is institutionalizing 
the potential for fraud. When you look at this, you look at 
this bill as a whole, we weaken the ability to ensure that the 
right people are voting, and then we are going to 
institutionalize a system that has been shown that it can be 
fraudulently used.
    This is the problem I have with taking anything from the 
States and moving it to the big bureaucracy of the Federal 
Government, which is much, much further away from the people 
than the State governments and the local governments, which I 
think, as in any case, there have been issues. There is always 
issues. But the issues with the States are much less impactful 
than with anything that the Federal Government begins doing.
    With that, I would like to yield whatever time he may 
consume to my good friend from North Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Loudermilk.
    Just a couple quick things here. To my colleague from 
California, I think your quote was, you are in control of your 
ballot, but the fact is, that is--the whole reason for this 
amendment is that I don't believe that you are. You actually 
have volunteers, these are not even paid people really 
accountable to anyone. These are volunteers going around 
collecting these absentee ballots.
    Speaking of North Carolina, my other friend from California 
mentioned that this was widespread fraud. Actually, it wasn't, 
but it shows you how much damage one individual can do when you 
have one county, Bladen County, go from 25 absentee ballots to 
over 500, obviously there is an issue with that kind of growth, 
and the more you looked into it, the more we saw what was going 
on.
    But my question is this: Should we not have some 
consistency in our Federal voting laws that even if it is a 
gray area, what is legal in one State, you can do that a little 
bit over here, maybe--I don't understand why there is not a 
consistency across the board, that if it is even close to being 
illegal in North Carolina, why in North Carolina--or why in 
California, that you would have volunteers--now, McCrae Dowless 
did lots of things that we are still uncovering, and I don't 
want to acknowledge him in any way, but some of what he did may 
have been legal if it would have been in California. There may 
be some other things where he acted more improper where he 
actually filled some of it out. We are still looking into that. 
But just his whole process of going to these places and 
collecting some of these ballots, to me, it looks like that a 
volunteer could do that in California but not in North 
Carolina. I see some of the staff even shaking their heads 
behind you there.
    This is a problem. If a volunteer in North Carolina can go 
and collect these absentee ballots, but you can't do that in 
California, should we not have consistency here is my question 
and with that I yield back to Mr. Loudermilk the remaining 
minute 55.
    Mr. Loudermilk. I will yield my remaining time to Mr. 
Davis.
    Mr. Davis of Illinois. I appreciate the comments made by 
those on the other side of the dais. I do want to go there, as 
my colleague Mrs. Davis said. This amendment would make sure 
that people could vote on election day in absentee. What we are 
trying to do is stop the potential for more McCrae Dowlesses in 
every other State in the Nation.
    You all want to federalize the national election system--
that is what this bill does--but you don't want to federalize a 
process that has been shown to be ripe for possible criminal 
behavior. And we have evidence from people on the ground when 
these ballots in certain California races were being counted, 
you had somebody who worked for a campaign--their goal is to 
win. Nothing more, nothing less--who was a ballot harvester and 
a poll watcher and somebody who was there when they were 
counting the ballots.
    Mr. Butterfield. Will the gentleman yield for a question?
    Mr. Davis of Illinois. No, I only have 56 seconds left. You 
will get your time in a second.
    Mr. Butterfield. All right.
    Mr. Davis of Illinois. I have got to take everything I 
have.
    This is a problem, and to say that you don't realize that 
this is a problem and to look and just--because of 
partisanship, put this amendment down, we know that this has 
been a problem in North Carolina. William Wilberforce said, you 
can choose to look the other way, but you can never again say 
that you did not know. This is something that needs to be 
addressed for fairness. If this bill really is about fairness, 
if this bill is about giving everybody the chance to vote, then 
let's make sure that no one can just pop a ballot out the back 
door of their car because they know they may have picked up 
another party's ballot.
    You want to talk about bipartisanship? Bipartisanship will 
matter when we have a fair election process that does not allow 
ballot harvesting.
    The Chairperson. The gentleman yields back.
    The gentleman from North Carolina is recognized for five 
minutes.
    Mr. Butterfield. Thank you. Thank you, Madam Chairperson.
    First, I want to get a clarification on the--the amendment 
appears to speak to Section 1931, Subtitle O, but I am trying 
to find that in the amendment in the nature of a substitute. I 
am trying to get the----
    The Chairperson. It adds. It adds a new subtitle.
    Mr. Butterfield. It would be a new subtitle?
    Mr. Davis of Illinois. Yes.
    Mr. Butterfield. Okay, that clears that up.
    Okay. I understand, Mr. Davis, that you want to limit who 
handles ballots to family members and election officials and 
postal officials and all of that. Do you also want to address 
those who handle applications for absentee ballots?
    See, in North Carolina, we have two processes, step one and 
step two. First you have the application process where the 
voter seeks to have a ballot mailed to him or her, and step 
number two is when the voter mails the ballot back to the Board 
of Elections.
    Your amendment, I just want to get this clear, your 
amendment does not speak to the application process?
    The Chairperson. Will the gentleman yield for the----
    Mr. Davis of Illinois. We are talking about ballot 
harvesting. You are talking about vote by mail, where it goes 
through the Postal Service and gets delivered directly to the 
election official.
    Mr. Butterfield. I am.
    Mr. Davis of Illinois. But not another set of fingers put 
on it that could possibly commit the same fraud that we saw 
exist in your home State.
    Mr. Butterfield. But absentee voting by mail is what you 
are addressing?
    Mr. Davis of Illinois. No. We are addressing ballot 
harvesting. We are addressing somebody----
    Mr. Butterfield. In general?
    Mr. Davis of Illinois. We are addressing a process that is 
legal in the State of California right now for anybody to go 
and pick up ballots and then be trusted to bring them back to 
the election officials' office without any bipartisanship that 
occurs----
    Mr. Butterfield. These are live ballots after they have 
been completed?
    Mr. Davis of Illinois. Yes. Or as far as we know. Did 
McCrae Dowless complete--did he pick up only completed ballots? 
That is why this process needs to be outlawed. That is the 
questions we have right now, Mr. Butterfield. Because what was 
illegal in your State is not illegal to do in other States.
    In particular we saw the ballot harvesting process possibly 
determine the outcome of elections to Congress. Imagine how 
many local officials that could have been impacted by those 
same ballot harvesters. There are no safeguards. That is the 
problem here. That is again why I say, we can all choose to 
look the other way, but we can never again say we did not know.
    Mr. Butterfield. Reclaiming my time. Thank you, I yield 
back.
    The Chairperson. The gentleman from Maryland is recognized 
for five minutes.
    Mr. Raskin. Madam Chairperson, thank you, and I rise in 
opposition to the amendment. Although I confess that I am 
somewhat charmed by the argument from our friends who have been 
saying that they don't want to interfere with the State, 
suddenly to try to rewrite the laws of 50 States with respect 
to voter fraud when it is completely unnecessary.
    Now, as I understand what Leslie McCrae Dowless did in 
North Carolina was he picked up the absentee ballots, and then 
some of them they threw away, some of them they lost. Some of 
them they may have written their own way. That is voter fraud. 
It is voter fraud in North Carolina. It is voter fraud in 
California. This guy is not in trouble because he delivered 
somebody's ballot successfully to the Board of Elections. He is 
in trouble because he committed voter fraud. You know, 
anybody--any third grader would recognize that what he did was 
to try to distort and alter the outcome of the election. That 
is against the law in California right now, as I understand it. 
I just----
    Mr. Davis of Illinois. Will the gentleman yield?
    Mr. Raskin. By all means.
    Mr. Davis of Illinois. What we are trying to do is prohibit 
a process that we saw could be corrupted.
    Mr. Raskin. Can I ask you about that then? Okay.
    Mr. Davis of Illinois. What the rest of this bill is trying 
to do is prescribe--prescribe a process to our States. That is 
the difference between this amendment and the rest of this 
bill. So that is why I wanted to respond to your--but, yes, I 
will answer your question.
    Mr. Raskin. Okay. So, well, just reclaiming my time then.
    Your solution strikes me as an exceedingly broad one to the 
problem of a few bad actors. I mean, the Dowless guy also had 
been convicted of insurance fraud a few years before where he 
took out a life insurance policy on a dead man and collected 
$165,000. You may as well rewrite the life insurance policy law 
in California because he did that. But why would you? What he 
did was fraud in North Carolina. It is fraud in California too.
    Now, under your law, you would still allow the practice, 
which you have described as ballot harvesting, if the person's 
a household member, a family member, or a caregiver. Those 
terms are not defined anywhere. Why would you allow that? Now, 
I happen to think it is fine, but if I can give my ballot to, I 
don't know, you tell me, a brother-in-law, a stepbrother, a 
half-brother, why can't I give it to my roommate, who I have 
lived with for the last 50 years, my best friend from college 
to take in, if I am disabled, and do I need to be disabled in 
order to do it?
    So, the argument is presented as this sweeping categorical 
prohibition, but then it is riddled with exceptions with all 
these people that you want to allow to be----
    Mr. Davis of Illinois. Will the gentleman yield?
    Mr. Raskin. Shouldn't we leave that to----
    Mr. Davis of Illinois. Will the gentleman yield?
    Mr. Raskin [continuing]. The people of California and North 
Carolina and Florida to decide, because all of them have their 
own prohibitions against voter fraud, which is a completely 
recognizable species of misconduct.
    By all means.
    Mr. Davis of Illinois. Thank you. We are assuming in 
California, because the election results have seated Members of 
Congress, that there wasn't fraud, but we cannot sit here and 
say that this process is not ripe for fraud, because what is 
illegal--what is alleged--and I believe there was fraud in 
North Carolina, which is why I think this process needs to be 
changed. The sheer fact that the same process that could 
prosecute and send this gentleman back to jail--and I am--you 
know, I don't think he should lose his right to vote, right, 
because he was a convicted criminal in the past.
    Mr. Raskin. Not when he gets out of prison because----
    Mr. Davis of Illinois. Yeah, so--but he----
    Mr. Raskin [continuing]. The purpose of punishment is 
rehabilitation.
    Mr. Davis of Illinois. But he committed a process that is 
going to probably send him back to jail. And we have got to 
make sure we have processes in place that don't encourage that. 
And we are trying, with this amendment, to identify those who 
States can then identify who they trust to bring in as a ballot 
harvester.
    Mr. Raskin. All right. Reclaiming my time.
    I don't think you are trusting the States to decide. You 
have defined the categories--you haven't really defined them. 
You have designated them without defining them, and so I--
basically, I think that your amendment doesn't even have the 
courage of its convictions. If you want to ban it, you should 
just ban it without offering a whole string of exceptions. But 
let the States decide what it is that they want to do. 
California doesn't seem to be having a problem, and I don't see 
why we should superintend their law for them on this.
    I yield back, Madam Chairperson.
    The Chairperson. The gentleman yields back.
    I would also urge a ``no'' vote on this amendment. 
California Election Code Section 3017 provides that, quote, a 
vote-by-mail voter who is unable to return the ballot may 
designate any person to return the ballot to the elections 
official who issued the ballot to the precinct board at a 
polling place or vote center within the State or the vote-by-
mail ballot dropoff location within the State.
    Now, there are criminal penalties for doing this wrong. 
California Election Code Section 18577 provides that any person 
having charge of a completed vote-by-mail ballot who willfully 
interferes or causes interference with the return to local 
elections officials having jurisdiction over the election is 
guilty of a misdemeanor, punishable by imprisonment in the 
county jail not exceeding 6 months and by a fine not exceeding 
$10,000, or by both fine and imprisonment.
    I will say that this--you know, I think the amendment to 
some extent is illogical. The North Carolina law prohibits 
voter harvesting. You can only give it to a family member. So 
that is the standard that is being urged, and yet it is in 
North Carolina that the election fraud occurred because this 
individual violated the law, and he will be held accountable 
for his misbehavior.
    But there have been no credible reports of fraudulent or 
otherwise illegal provisions in California. I understand that 
many people outside of California were perplexed about why the 
count took so long. Those of us in California know why. It is 
because the ballots that are postmarked on election day are 
still counted. And it can take, you know, days to be delivered. 
And then each ballot has the signature on the outside, needs to 
be compared to the microfiche that is in the election office. 
It is a very time-consuming process. It was no surprise to any 
of us in California that it took a long time, and the late-
breaking ballots did not go for the Republican incumbents in 
our State up and down the State.
    But there were observers from both parties in all the 
contested elections, and there were no allegations, that I am 
aware of--and I took quite some time to find out--of fraud in 
any of these elections. I do think it is important that 
individuals who are homebound, who have no family to delegate 
this role to, have an opportunity to give their ballot to 
someone who will turn it in for them, and I would hope that we 
may----
    Mr. Davis of Illinois. Madam Chairperson, I know I have no 
more time left.
    The Chairperson. I will yield to the gentleman.
    Mr. Davis of Illinois. Well, thank you. I just want to say, 
federalize a criminal penalty for a local election official who 
may mistakenly have an employee who may be an intern or a temp, 
remove somebody from the voter rolls unintentionally, but we 
are not willing to federalize a crime that you say is illegal 
in your State, that is obviously--the process is illegal in 
North Carolina. I think this shows--the debate we are having 
here today shows clearly that this Committee ought to have a 
hearing on ballot harvesting.
    This Committee ought to have witnesses from North Carolina, 
from California and others, sitting at that table, and we ought 
to be able to get an idea of what ballot harvesting means in 
this country and what safeguards we can put in place. Because 
the sheer fact is, if somebody grabs a bunch of ballots and 
they are coming in, in California, and it was so late to count 
these ballots because they kept coming in, your congressional 
districts aren't that big. It doesn't take days to get ballots 
that were postmarked on election day to the local county 
election office. It just doesn't work that way.
    When they are out there, it is ripe for possibilities of 
fraud. That is why we ought to have a hearing. We ought to have 
more openness, and that is the biggest complaint I have about 
this markup, is we are not given the right data before this 
bill is pushed through.
    The Chairperson. Reclaiming my time.
    I will just close, before my time expires, by indicating 
that the vast majority of the votes that were counted in all of 
these races were, in fact, delivered by mail. And it does take 
a long time. The Central Valley districts are not compact. Try 
going from one end to the other in Congressional District 21, 
it is not an easy or compact district.
    But in any case, the remedy being urged on us by our 
friends on the other side of the aisle is the North Carolina 
model, which, in fact, did not help prevent the fraud.
    My time is expired. The time of all Members has expired.
    Those who favor the amendment will vote aye.
    Those opposed will vote no.
    The Chairperson. In the opinion----
    Mr. Davis of Illinois. I request a recorded vote.
    The Chairperson. I have to say, in the opinion of the 
Chair, the noes have it, and a recorded vote is requested. The 
clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    [No response.]
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, six Members voted no, and two 
Members voted yes.
    The Chairperson. The amendment does not prevail. Are there 
additional amendments?
    Mr. Davis of Illinois. Yes. I have an amendment at the 
desk, Madam Chairperson.
    The Chairperson. Mr. Davis has an amendment. The clerk will 
distribute the amendment. Mrs. Davis reserves a point of order, 
and the clerk will read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis of 
Illinois. Insert after subtitle N of title I----
    The Chairperson. I would ask unanimous consent that we 
dispense with the reading of the amendment.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    The Chairperson. Mr. Davis is recognized for five minutes 
in support of his amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    Leave it to me to go back to the last debate quickly, but I 
have been to California 21 and that district is not that large. 
Come to Illinois, go to Montana. The sheer fact that ballots 
were coming in after election day shows this process is ripe 
for possible fraud. That is why we should have had a different 
vote on that amendment and we did not. And that frustrates me, 
because it is about fairness, I heard. But it failed.
    This amendment that I am offering would add a new subtitle, 
prohibiting any funds authorized in this bill to be made 
available to anyone who does not certify that they did not aid 
in the creation or enactment of this bill.
    The amounts authorized to be appropriated in H.R. 1 are 
staggering. We still have not received a CBO cost estimate to 
even know how much it will cost. And we still have not had our 
questions answered on who assisted in the drafting of this 
bill. It was bragged about at the press conference announcing 
the bill. I don't know who helped write this bill. Who were 
they? Are they going to gain from the possibly billions that 
are going to be put into the campaigns? Are they going to go be 
a political consultant? Are they going to work for the TV 
stations?
    By all appearances, H.R. 1 is simply a way for political 
operatives to enrich themselves. I support the passage of this 
amendment, and I yield back.
    The Chairperson. The gentleman yields back.
    The gentleman from Maryland is recognized for five minutes.
    Mr. Raskin. Thank you very much, Madam Chairperson.
    I am just getting familiar with the amendment right now. 
And as always, Mr. Davis has an inspired suggestion here. I 
would almost like to argue that we universalize this for all 
legislation that goes through Congress, that anybody who has 
lobbied for it can't benefit from it in any way, but I think 
that that extension of the principle demonstrates precisely 
what is wrong with this, which is it is a naked violation of 
the First Amendment.
    The Supreme Court has determined that the right to lobby 
and to participate in the legislative process is protected by 
the First Amendment. So this violates the doctrine of 
unconstitutional conditions, which says that you can't 
condition the receipt of public money and public funding on 
surrender of a constitutional right. And essentially what you 
are saying is, if you want to enjoy the benefits of this 
legislation, or by extension, any other legislation, you can't 
have participated in the legislative process that leads up to 
enactment.
    I would say, if for no other reason, we shouldn't pass this 
because it is unconstitutional. I yield back.
    The Chairperson. Mrs. Davis withdraws her reservation.
    Are there additional Members who wish to be heard on the 
amendment?
    I would just note, in addition to the comment made by the 
gentleman from Maryland, that the funds made available in the 
act are made available to State election officials, and that 
the States should not necessarily be constrained in how to 
administer those funds, and this prohibition would be an 
overreach in restricting who States can contract with.
    The gentleman asked to be recognized.
    Mr. Walker. Thank you, Madam Chairperson.
    The Chairperson. The gentleman is recognized for five 
minutes.
    Mr. Walker. I will yield my time to the distinguished 
gentleman from Illinois, Mr. Davis.
    Mr. Davis of Illinois. Yeah, we have in this amendment 
exception for State and local governments. So State and local 
government officials helped to write this bill that we don't 
know about. They would be exceptions. What we are talking about 
are the same special interests that this bill is supposed to 
get out of politics. We don't know if lobbyists, we don't know 
if different groups who are active politically helped to write 
this bill.
    Our colleague at the press conference announcing this bill 
said that we want to thank these different groups who helped us 
write it. That is exactly why we must ensure that they cannot 
gain from the drafting of this bill.
    I appreciate the--look, my friend from Maryland, I 
appreciate your friendship and your tenacity too, but it shows 
we can have policy disagreements but not be disagreeable, but 
this is clear. This is clear. Somebody who wrote the bill 
shouldn't be able to profit from it, because it is going to put 
billions upon billions upon billions of dollars--I mean, look, 
my good friend Mr. Aguilar, you look at what he raised from 
under $200 in contributions, he would have been eligible for up 
to 3 million bucks to spend. He didn't have a race. He could 
have spent it on somebody else's behalf.
    It is more money getting into the political system. It is 
people who say they helped write a bill that is going to take 
money out of the political system and instead replace it--not 
even replace it--add to it with tax dollars, and we still don't 
know how much this bill is going to cost. There is no CBO 
score. This is being rushed through.
    Again, I reiterate, I don't blame my colleagues sitting on 
the other side of this dais. I believe it is your leadership 
that is pushing this bill to move to the floor, to send a 
political message, and it is not real legislation. This is a 
political message meant to help drum up support for what have 
you in the electoral process, and it is very frustrating to me.
    Mr. Raskin. Will the gentleman yield?
    Mr. Davis of Illinois. Yes, I will.
    Mr. Raskin. But I wonder, would you be willing to 
universalize this principle and attach it to every piece of 
legislation that goes through Congress? So I am thinking of one 
very special case, for example, that was discussed recently 
about the prohibition in Medicare for the government not to be 
able to negotiate for lower prescription drug prices, which was 
put in very explicitly at the behest of the big pharmaceutical 
companies, and would we want it to say, they can't benefit from 
this legislation if they had any involvement in the legislative 
process?
    Mr. Davis of Illinois. Well, it is very interesting that my 
colleague wants to offer an amendment that would be outside of 
this jurisdiction of this Committee, because I had to withdraw 
an amendment that is outside of our jurisdiction.
    I would defer to the Energy and Commerce Committee, who 
held many hearings on our Medicare program and Medicare Part D, 
who, you know, created a process that involved many, many hours 
upon hours upon hours of hearings. We have not had that here, 
Mr. Raskin. I have had 15--as the Ranking Member of a standing 
Committee in the House of Representatives, the most open 
process that we have had is me asking 15 total minutes of 
questions to two panelists, and this is--and then we got a 571-
page bill.
    Look, I read the last 200 pages of this bill on a treadmill 
Sunday, and I walked five miles while I did it. Tell me, tell 
me that this is something that we should put through to the 
American people that is going to nationalize our election 
processes. That is what is frustrating to me. I get it. I know 
it is not the members of this Committee's fault that we are 
doing this, I know that. This is something that leadership 
wants. They want to send a political message. They don't want 
to govern. They want--if this ever got through, it would 
seriously nationalize the electoral process. It would seriously 
undermine the States' responsibilities to have and to hold 
elections on the days that they see fit.
    We have so many problems with this bill. I would certainly 
hope that when the ballot-harvesting amendment failed, that we 
would recognize as we go through further, that there has got to 
be a part--there has got to be some bipartisanship in this. 
There is none right now. And I am giving you 40 opportunities 
to show some, and I got nothing.
    I will yield the 33 seconds to Mr. Walker if he wants it. 
Otherwise, I yield back.
    Mr. Walker. I yield back.
    The Chairperson. The gentleman yields back.
    The gentlelady from Ohio is recognized.
    Ms. Fudge. Thank you so much, Madam Chairperson.
    If that is the case, Mr. Davis, then I think we need to go 
back and repeal the tax bill, because I know probably half of 
the people in this Congress benefited from it, and it had not 
one hearing. Not one. Not one. So if that is the case, I am 
happy to go back and repeal it. I think it would be a great 
idea.
    I yield back.
    The Chairperson. The gentlelady from Ohio yields back.
    I just wanted to note that I think my comment was 
misunderstood. It is not that State election officials were 
exempt because, you know, if they participated; it is that the 
grants will be administered by the States, and that we would be 
constraining them.
    You know, this is a bill that was introduced by our 
colleague from Maryland, Mr. Sarbanes. There are a number of 
bills that were introduced by other people that were compiled 
into the bill as there--a book I read years ago called The 
Dance of Legislation, and, you know, when you write bills, 
people give opinions, constituents write in. It is a process 
that is interesting and inclusive, and that is, I think, 
generally, a good thing.
    I think this amendment not only would violate the First 
Amendment, but it is probably not a good practice. I would urge 
a ``no'' vote.
    The time of all members has expired.
    So I would ask those who are in favor of the amendment to 
vote aye.
    And those opposed to vote no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I request a roll call vote.
    The Chairperson. A roll call has been requested. The clerk 
will please call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    [No response.]
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, five Members voted no, and 
three Members voted yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments for consideration?
    Mr. Davis of Illinois. Yes. I have an amendment at the 
desk.
    The Chairperson. Mr. Davis' amendment will be distributed.
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. Mrs. Davis reserves a point of order, and 
the clerk will please read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis of 
Illinois, strike section 2502.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. Mr. Davis, you are recognized for five 
minutes in support of your amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson, and 
thank you to my colleagues for going through this process. This 
is a process that I am glad we can have open amendments. I am 
glad we can discuss our concerns with this bill, because, you 
know, I am for open processes, and you know what, it is an 
epiphany.
    All of you who said we didn't have enough hearings on the 
tax bill or the healthcare bill, hey, you were right. You were 
right. Why are you doing the same thing to us when you take 
control? That is--you were right. We need to have more. We need 
to have more processes. We ought to have more hearings. And we 
are not going to get that. We are not going to get that.
    This amendment strikes Section 2502. This provision would 
overturn the Supreme Court and prohibit States from removing 
invalid voters from their rolls. National Voter Registration 
Act requires--a bill that passed this House--requires States to 
conduct a general program that makes a reasonable effort to 
remove the names of voters who are ineligible by reason of 
death or change in residence.
    Approximately 24 million voter registrations, one in eight 
in the U.S., are either invalid or inaccurate. And about 2.75 
million people are registered to vote, more than--that vote in 
more than one State. And that is straight from the Supreme 
Court Husted opinion.
    Voter list maintenance is critical to keeping election 
costs down and lines at the polls short. I know costs don't 
matter with this bill because we have seen that.
    The Supreme Court laid out a good standard in Husted, and 
that was just in 2018. This wasn't some decision made back 
decades ago. In Ohio, for example, to remove a voter from the 
rolls, mail has to be preaddressed, prepaid postcard to voters 
who haven't voted in two years to determine if they have moved. 
If they don't vote in any other election for four more years, 
then they are presumed to have moved and are removed from the 
rolls. That seems like a pretty reasonable process to keep the 
election costs down in our States.
    Your bill would not allow this. Your bill would not allow 
this to happen.
    Section 2502 would make this requirement nearly impossible 
for States to comply with already existing law, the National 
Voting Rights Act. Now, I will give you an example. In 
Alexander County, Illinois, there are more registered voters 
than people who were counted in the census. What H.R. 1 will do 
would codify that we will have more registered voters in so 
many more census tracks, almost, could be all of them in this 
country, if it is implemented, than people who say they live 
there.
    So local election officials, they are going to print as 
many ballots as they can for the possibility of a hundred 
percent turnout. And if they are wrong, if they try and save 
costs like we have seen in the past, and then there is unheard 
of turnout, you know who is going to get criticized? It is the 
local election officials. When what this bill would do would be 
requiring them to take that gamble. That is why this bill is a 
serious infringement on free speech. This bill is a serious 
infringement on States and local governments to run their own 
election processes.
    We want everybody to vote. I can't state that enough, we 
want everybody who is eligible to vote to vote. We want 
everybody who is eligible to register to vote. But what this 
Committee has shown me is that they have no regard for putting 
safeguards in place. Not a single amendment that offers what I 
believe are commonsense safeguards has been voted for by the 
majority. Not one. This is our time to show bipartisanship, and 
I am getting none.
    If this bill wants to be shoved down our throat in a 
partisan roll call, just like many bills I heard in the past 
from my Committee members were shoved down their throat when we 
were in the majority, that process is taking place right now. 
And that is wrong. Doesn't matter who is in charge, it is 
wrong.
    I yield back.
    The Chairperson. Do additional Members wish to be heard on 
this amendment?
    Is the reservation withdrawn?
    Mrs. Davis of California. Yes.
    The Chairperson. I would urge a ``no'' vote on this. I 
think the minority is mischaracterizing Section 2502. It does 
not prevent States from removing ineligible voters. Instead, 
Section 2502 ensures that voters do not lose their right to 
vote simply because they have chosen not to vote in an 
election. Voting is a right, not a use it or lose it privilege.
    Section 2502 still allows for numerous options for States 
to remove ineligible voters. For example, States can remove 
voters from the rolls because they passed away or changed 
addresses. Federal standards exist to help ensure accurate 
voter rolls, but they don't really protect the right to vote.
    You know, it is interesting that the purge rates greatly 
increased in covered States after Shelby County v. Holder. And 
those previously preclearance States appear to have engaged in 
purging with an agenda. It is important that that not be 
permitted. And this amendment would undo that.
    I will say, Mr. Davis, that we don't agree with the 
amendments you have offered so far, which is why we are not 
voting for them, primarily because they strike the bill that we 
agree with. We are certainly willing, and hopefully we will be 
able to come to agreement on some of the amendments. But come 
up with a better amendment and maybe we can do that.
    So unless there are further comments on this amendment, I 
would ask that those who favor the amendment say aye.
    And those who oppose it, say no.
    And in the opinion of the Chair----
    Mr. Davis of Illinois. I request a recorded vote.
    The Chairperson [continuing]. The noes have it. A recorded 
vote has been requested, and the clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, six Members voted no, and 
three Members voted yes.
    The Chairperson. The amendment did not prevail.
    Are there additional amendments that Members wish to offer?
    Mr. Davis of Illinois. Yes. I would like to offer, I 
believe it is out of order, Davis amendment No. 19.
    The Chairperson. Okay.
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. A point of order has been reserved. The 
clerk will distribute the amendment, and the clerk will please 
read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis of 
Illinois, amend Title III to read as follows --
    The Chairperson. I would ask unanimous consent that the 
amendment be considered as read.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. Mr. Davis, you are recognized for five 
minutes to support your amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    Every one of the amendments we have offered, except this 
one, has been about five pages on average. You don't like our 
amendments because of the way they were written. Well, I don't 
like your 571-page bill, which is why I offered 40 amendments. 
Only 40. We are nowhere close to 571 pages. So I am going to 
give you a chance to show bipartisanship, because this 
amendment that strikes Section 3001, it authorizes funds for 
Title III and replaces it with the Secure Elections Act. It is 
a bipartisan bill from the 115th Congress.
    Nothing about H.R. 1 has been open or transparent. The 
Secure Elections Act was a bipartisan bill and is the model we 
should be adopting in the House. Again, bipartisan.
    This bill designates Federal elections and their 
infrastructure as critical infrastructure, ensures that every 
vote is cast by a paper ballot, marked or verifiable by the 
voter; encourages security audits and the adoption of basic 
cybersecurity standards for voting infrastructure. It improves 
post-election auditing, especially through statistical 
sampling. Additionally, it articulates a retaliatory policy 
that threatens to impose costs on those who seek to threaten 
the integrity of the U.S. elections.
    The Secure Elections Act is not a perfect bill; it is a 
much better starting point than H.R. 1. I support the passage 
of this bipartisan amendment, and I yield back.
    The Chairperson. The gentleman yields back.
    Do other Members wish to be heard on the amendment?
    Mrs. Davis of California. I withdraw the point of order.
    The Chairperson. The point of order is withdrawn.
    I would like to note I personally thought that this was not 
germane, but the Parliamentarians overruled us. So----
    Mr. Davis of Illinois. We will take it.
    Mrs. Davis of California. It is bipartisan.
    The Chairperson. That is right. You know, we have moved 
forward in terms of knowledge since 2002. The Secure Elections 
Act does not provide State and local governments the resources 
they need to improve election security. Rather it approaches 
the same old one-and-done approach to funding that got us into 
this situation of inadequate security.
    H.R. 1, in contrast, provides States the surge funding they 
need to secure elections in time for the 2020 election, and the 
predictability of funds in the future, so they can plan, make 
deliberate security investments, and continue cybersecurity 
training for election officials.
    The Secure Elections Act, although well intentioned at the 
time it was devised, fails to impose sufficient transparency 
requirements for election service providers.
    H.R. 1 provides greater transparency related to election 
security vendors, including requiring the disclosure of supply-
chain information, and it requires that vendors be owned and 
operated by a U.S. citizen or legal permanent resident, among 
other things, which was absent from the prior bill.
    Finally, H.R. 1 would ensure that audits take place by hand 
rather than a machine, and that is critical for election 
security if the electronic counting system has also been 
infected. I appreciate the spirit in which this amendment was 
offered, but I think H.R. 1 is an improvement over the prior 
effort, so I would urge opposition to the amendment as offered.
    Are there additional comments to be made?
    If not, all those in favor will say aye.
    Opposed will say no.
    In the opinion of the Chair, the noes have it. A recorded 
vote has been requested. The clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Aye.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Aye.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, six Members have voted no, 
three Members have voted yes.
    The Chairperson. The amendment is not adopted.
    Are there additional amendments that Members wish to offer?
    Mr. Walker. Yes.
    The Chairperson. The gentleman from North Carolina has an 
amendment.
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. Mrs. Davis has reserved a point of order. 
The clerk is distributing the amendment.
    Will the clerk please read the title?
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Mark Walker of North 
Carolina, strike Section 4122.
    [The amendment of Mr. Walker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    The Chairperson. The gentleman is recognized for five 
minutes on behalf of his amendment.
    Mr. Walker. Thank you, Madam Chairperson.
    This amendment strikes Section 4122. This provision creates 
a new standard of judicial review, creates new standards of 
judicial review that weakens the rights of respondents in 
Commission matters. Let me break it down. If a respondent 
challenges in court a Commission decision finding that it 
violated the law, the court would then defer to any reasonable 
interpretation the agency gives to the statute. But if the 
respondent wins at the Commission, no deference will be given 
to the FEC's decision if challenged in court.
    Basically, this ``heads I win, tails you lose'' approach 
harms respondents and biases court decisions against speakers. 
I support the passage of this amendment, and I yield back.
    The Chairperson. The gentleman yields back.
    Do other Members wish to be heard on the amendment?
    Mrs. Davis of California. I withdraw my point of order.
    The Chairperson. Mrs. Davis does not insist on her point of 
order.
    I would just note that Section 4122 simply establishes that 
challenges to the constitutionality of campaign finance laws go 
to the U.S. District Court for the District of Columbia, with 
an appeal to the D.C. circuit. It also provides a right for 
Members of Congress to intervene in support of or opposition to 
the position of a party to the case regarding the 
constitutionality of any challenged provision. It doesn't 
create a new standard of judicial review. It is simply 
procedural as to where these matters will be heard.
    Are there additional Members wishing to be heard on the 
amendment?
    If not, then on the amendment, those in favor will say aye.
    Opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I request a roll call vote.
    The Chairperson. There is a request for a roll call vote. 
The clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Okay, Madam Chairperson, six Members have voted 
no, three Members have voted yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments to be heard?
    Mr. Davis of Illinois. Madam Chairperson, I have an 
amendment at the desk.
    The Chairperson. Mr. Davis' amendment will be distributed.
    Mrs. Davis of California. I reserve a point of order.
    The Chairperson. A point of order is reserved. The clerk 
will----
    Mr. Davis of Illinois. Amendment 22. Pardon. I have 
skipped.
    The Chairperson. Okay. Amendment 22.
    Mr. Davis of Illinois. Madam Chairperson, the amendments 
will be distributed. I apologize, but as much as I know, my 
good friend Marcia wants to hear me go through all my 
amendments, I have chosen to skip a few.
    Ms. Fudge. Really?
    Mr. Davis of Illinois. Yes, yes. I know it is not usually 
my style, but we did it.
    This amendment strikes Section 4208----
    The Chairperson. Oh, this is--no. This is 41--this is the 
same amendment. So we need----
    Mr. Davis of Illinois. 4208, yeah.
    Voice. So 4206 you are skipping?
    Mr. Davis of Illinois. We are skipping 4206.
    The Chairperson. Okay. Can we find the correct----
    Mr. Davis of Illinois. Trust me, this process is still 
shorter than me talking on the other ones.
    The Chairperson. That is all right.
    Thanks very much. The clerk will report the title of the 
amendment.
    The Clerk. An amendment to the amendment in the nature of a 
substitute to H.R. 1, offered by Mr. Davis of Illinois, Strike 
Section 4208.
    And a point of order is reserved--actually, and withdrawn. 
This is germane.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Davis of Illinois. All right. Ready to roll?
    The Chairperson. The gentleman is recognized for five 
minutes.
    Mr. Davis of Illinois. Thank you.
    This amendment strikes Section 4208. This provision creates 
new political record requirements for online platforms. Any 
person or group spending as little as $500 during a calendar 
year on qualified political advertisements on many popular and 
widely accessed internet platforms, including news, social 
media, social networking sites, search engines, mobile apps--a 
lot of us spend that on franking--so they would have to provide 
certain information to those platforms, and the information 
would have to be posted in an online public file.
    The term ``national legislative issue of public 
importance'' is not defined, and is borrowed from the public 
file requirements for broadcasters under the Federal 
Communications Act, which also does not define this term.
    I know we had some debate earlier about terms that I have 
defined in some of my amendments. This is another example where 
the Committee could show the same consideration, because the 
process could truly disrupt free speech. And we want free 
speech for everyone. So--not just those who helped write the 
bill, that we don't know.
    Grassroots groups using social media to promote contentious 
but important causes, such as support or opposition for a wall 
on the U.S.-Mexico border, immigration reform, the Tea Party, 
the Women's March, to targeted supporters, may find themselves 
targeted for harassment and retaliation by opponents monitoring 
the content and scope of their online advertising campaigns, 
using the information reported in the public file.
    I support the passage of this amendment, and I yield back.
    The Chairperson. Do other Members wish to be heard on the 
amendment?
    I would just like to note that it is true that the Honest 
Ads Act borrows from the approach that applies to political ads 
on television and radio. It extends those standards to online 
platforms and requires those platforms to keep public records 
of political ads. The bill does also include a safe harbor for 
those online platforms to show their best efforts. It does so 
in Section 4208 which adds a subsection titled Safe Harbor for 
Platforms Making Best Efforts to Identify Requests which are 
Subject to Record Maintenance Requirements. In accordance with 
the rules established by the Commission, if an online platform 
shows that the platform used best efforts to determine whether 
or not a request to purchase a qualified political 
advertisement was subject to the requirements of this 
subsection, the online platform shall not be considered to be 
in violation of such requirements.
    It only applies to big platforms, those with 50 million or 
more unique monthly visitors from the United States that sell 
political advertising. That is specified in Section 4208(A), 
which includes a subsection for online platforms that defines 
them as having 50 million or more unique monthly visitors or 
users for the majority of months during the preceding 12 
months.
    The Honest Ads Act has flexibility to deal with changing 
mediums, but at a minimum, people should know who is paying for 
an ad. This bill is about paid online advertising. It isn't 
about people's Facebook or Twitter accounts or their blogs. 
According to Borrell Associates, in 2016, more than $1.4 
billion was spent on online political advertising. The Honest 
Ads Act is about ensuring our disclosure laws keep pace with 
changing technology.
    Digital advertising can have a far greater reach than 
broadcast advertising, and it is time for the rules to be 
updated to reflect how campaigns are run in the 21st century. 
It is about curbing illegal foreign influence in our election. 
Facebook disclosed that Russian entities spent $100,000 in 
political advertisements to amplify the different social and 
political messages in 2016. Our online platforms can be 
exploited to sow distrust in American democracy. And that is 
something I think we all oppose. I oppose this amendment and 
would urge its defeat.
    Unless there are further comments----
    Mr. Walker. I would like to yield my time to the gentleman 
from Illinois.
    The Chairperson. The gentleman is recognized and yields his 
time to Mr. Davis.
    Mr. Davis of Illinois. Madam Chairperson, I appreciate you 
brought up what we do need to address, and that is the possible 
Russian interference that we saw on Facebook, but your safe 
harbor provision in the same statement would allow whomever to 
decide that Facebook did their best to ensure that they weren't 
compromised. That doesn't make sense.
    My amendment is the only way that I have a voice in this 
process on a 571-page bill that has been jammed down our 
throats. I mean, could you--I mean, would this bill with the 
safe harbor provision let Facebook off the hook? I don't 
understand. That is why we need to have more hearings. That is 
why we need to have a better process. That is why I offer this 
amendment, to bring attention to the problems in this bill, and 
I am not going to run away from the problems in this bill.
    The safe harbor provision would allow platforms like 
Facebook to walk away from responsibility that they now see 
that they should have taken before the 2016 elections. They 
chose not to. Unless this bill is strengthened, they are going 
to have the opportunity to choose not to again. Ladies and 
gentlemen, that is not what we are here for.
    I yield back. Although, I will tell you, we are working 
through more amendments to get this process going faster, so 
bear with us if we don't get the right amendment in front of 
you.
    The Chairperson. That is all right.
    Mr. Davis of Illinois. Thank you, and I yield back.
    The Chairperson. Does the gentleman from North Carolina 
yield back?
    Mr. Walker. Yes, I yield back.
    The Chairperson. The gentleman yields back.
    Mrs. Davis, did you wish to be recognized?
    Mrs. Davis of California. Thank you, Madam Chairperson.
    The Chairperson. The gentlelady from California is 
recognized for five minutes.
    Mrs. Davis of California. I was going to ask my colleague 
to just--if you could pinpoint where is the problem here? I 
mean, this is kind of like a floor, I guess you would say, and 
so I am just wondering where would you like to strengthen it? 
You mention Facebook, and I would agree with you when it comes 
to Facebook. I think that they were not open. Maybe that is a 
different way of saying it.
    The Chairperson. I think you can get unanimous agreement on 
that.
    Mrs. Davis of California. But I am just looking for, you 
know, where the----
    Mr. Davis of Illinois. Excuse me for not remembering the 
exact provision in this 571-page bill that the Chairperson 
referred to when she mentioned the safe harbor provisions. What 
she relayed to us and what I took it as is that a platform, 
regardless of the size--because I brought up concerns about 
groups who want to participate in the political process. 
Remember, I heard a lot of talk about free speech from both 
sides here but what Madam Chairperson talked about in her safe 
harbor provision was, oh, it is okay. You know, somebody will 
judge whether they did their best to ensure that bad actors 
weren't allowed in the process; did their best to ensure that, 
okay, maybe we didn't disclose that these were Russian troll 
farms buying $100,000 worth of ads on Facebook.
    Would Facebook be liable? Could they just say, oh, it is 
okay, we tried? Well, that still can have an impact. I am only 
working off of what this discussion has been, Susan, and I 
appreciate you are allowing me to actually respond too.
    The Chairperson. The gentlelady.
    Mrs. Davis of California. Well, I appreciate your response, 
and I think that we know that we have to do a far better job in 
being able to see through what is going on, and I think we have 
that experience now. We should be able to do it better. But it 
is important to--where in this can it be strengthened, and we 
can work on that in the future.
    I yield back.
    The Chairperson. If the gentlelady would yield to me, I 
would just note that there is a rule for the FEC here, because 
there are complicated questions, for example, on establishing 
search interface requirements. As we discussed at the hearing, 
it may be unduly burdensome to have a disclosure that is verbal 
in a 10-second ad, so they are going to make some decisions on 
that, as well as the other things on page 268, and it is not a 
blanket. It is a rulemaking process that is provided for.
    Are there further Members who wish to be heard?
    If not, those in favor of the amendment will say aye.
    Opposed will say no.
    In the opinion of the Chair, the noes have it.
    Are there additional--there is a request for a roll call 
vote. The clerk will please call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Aye.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Aye.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, six Members have voted no, 
three Members have voted yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments?
    Mr. Davis of Illinois. Yes, Madam Chairperson.
    The Chairperson. Mr. Davis has an amendment.
    Can you identify it for the clerk?
    Mr. Davis of Illinois. Yes. It will be Davis amendment 23. 
It will strike Section 5101. 5101.
    The Chairperson. The amendment is being distributed. The 
clerk will read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis of 
Illinois, strike Section 5101.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. Mr. Davis, you are recognized for five 
minutes in support of your amendment.
    Mr. Davis of Illinois. Thank you. I will read fast so we 
don't take that long.
    This amendment strikes the section that creates the My 
Voice Voucher pilot program. It provides citizens vouchers 
which they can then give taxpayer dollar financed vouchers to 
political candidates as contributions. This is simply a money 
grab for politicians. If the goal is to get money and 
corruption out of politics, I mean, who--who believes that this 
won't lead to more money in politics? How is it going to get 
dark money out of politics when we allow tax dollars to not 
replace it but be added to it? This is what is so frustrating 
about this bill.
    This is not a serious attempt at getting money out of 
politics. This is a serious attempt to invest taxpayer dollars 
to supercharge the amount of money that is being spent in 
congressional campaigns throughout this country. Supercharge 
it, turbocharge it, whatever you want to call it. I would have 
gotten a million extra dollars in this campaign based on this 
bill passing just in the last election cycle. You know what I 
would have done? Well, I wouldn't have gone 80 thousand into 
debt, but I would have spent the last, the other $920,000 on TV 
ads and radio ads and thrown it into our local economy, but is 
that what the intention of this bill is? I don't think so. It 
shouldn't be, but that is the result.
    This is not the business of Federal Government. Creating 
this program is taking the federalization of elections and 
campaign financing to a whole new level. The FEC is in no 
position to manage this program and would move the Commission 
away from their central mission.
    Additionally, some States are already doing this. Allow 
these experiments to play out. Just like we are not allowing 
Illinois to be used as a pilot program as to why we should give 
Federal workers election day off, let alone add 6 more days, 
when it hasn't truly addressed the problem in Illinois by 
giving State workers election day off every two years. We still 
have poll watching shortages. People just look at it as a day 
off. They are not getting active in the process. Heck. 
Hopefully they are early voting.
    We do not have a CBO score on this either. Unlimited 
taxpayer dollars going to political campaigns is certainly not 
what I think my colleagues on the other side of the aisle want 
out of this. Taxpayer dollars going to their campaigns? Really? 
I don't know how the American public is going to react to that 
when they know about it. Thankfully, we are having this markup. 
We haven't had enough hearings. They are not made aware of what 
is in this bill. This is our chance to make people aware of 
what is in it.
    I support the passage of this amendment, and I yield back 
my two minutes and 26 seconds.
    The Chairperson. All right. Thank you very much.
    I would like to just make a couple of points here, if I 
may. First, this is a pilot program that is based on a 
successful program adopted by Seattle voters for local 
elections that would run in three States and for a program 
operation period that will run two election cycles. In Seattle, 
when they implemented a similar small dollar democracy voucher 
program, the number of donors participating in local elections 
tripled, and the new donors better reflected Seattle's 
population.
    This is an alternative and completely voluntary way to pay 
for campaigns. It does not rely on special interests or Big 
Money donors. The program is about advancing the public 
interest, not special interests. Right now, big donors and 
wealthy special interests fund campaigns, and even if not 
funding everyone's campaign directly, they are funding big 
super-PACs and dark money groups.
    The intent of this is to give power to everyday Americans 
boosting their influence and voice in our elections, to empower 
more people who would otherwise be incapable of affording 
campaign donations to participate in the political process by 
contributing to candidates.
    I would like to note that all payments to the three States 
for the democracy vouchers are going to come from the Freedom 
from Influence Fund. I have heard Mr. Davis complain about the 
process in our hearing, but one outcome of the hearing was we 
heard you in terms of complaints about taxpayers' funds funding 
elections. So in the manager's amendment, it says no 
appropriated funds, no taxpayer money will be used and put into 
this Freedom from Influence Fund. All payments are subject to 
mandatory reductions of payments in case there are insufficient 
amounts in the fund, and there is a strict cap of $10 million 
for each of the three States participating in the pilot.
    Now, it is not in our jurisdiction to develop the funding 
source here in the House Administration Committee. That is 
beyond our jurisdiction. So essentially what we have done is 
created a vessel for nontaxpayer money to be placed in this 
Freedom from Influence Fund. No taxpayer dollars. So I think 
the amendment is misplaced. We will see whether the pilot 
program expands participation, as has been done in the States 
where it has been tried. If not, we will reevaluate.
    But without using taxpayer funds, we have an opportunity to 
see whether this really does get us away from the grip of 
special interests controlling elections through their money.
    Are there other Members who would like to be heard?
    The gentleman from North Carolina.
    Mr. Walker. Thank you, Madam Chairperson.
    I think we have the same end goal here on this particular 
area, but I do have a--may I ask a question of the Chair?
    The Chairperson. You can ask, and if I know the answer, I 
will tell you.
    Mr. Walker. This particular model, are we basing it on what 
we have seen in Seattle? Is that one of the----
    The Chairperson. That is one of the examples, yes.
    Mr. Walker. Okay. All right. It is my understanding that 
that particular model was--about half the administrative costs 
didn't get to where it needed to be. There may be some fraud as 
well. Is that a particular issue as far as this particular 
amendment that we need to strike?
    The Chairperson. Well, the Congressional small donor 
program is different than the voucher program, but we do think 
that this can be successfully managed. And obviously, we are 
going to have to have--if this becomes law, we are going to 
have to have oversight on this.
    Mr. Walker. Would it not make sense--thank you for 
entertaining me--maybe a potential hearing because of the 
concerns that we are seeing out of this? Is that something that 
maybe we could consider?
    And with that, I will yield back. Thank you.
    The Chairperson. Thank you.
    Are there other Members that wish to be heard on this?
    If not, then those who are in favor of the amendment will 
please say aye.
    Those who are opposed will say no.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. I request a roll call vote, please.
    The Chairperson. A roll call has been requested. Will the 
clerk please call the roll?
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Votes no.
    The Clerk. Ms. Fudge.
    Ms. Fudge. Abstain.
    The Clerk. Okay. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Okay. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, five Members have voted no, 
three Members have voted yes, and one abstention.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments to be heard?
    Yes, sir, the gentleman from Georgia.
    Mr. Loudermilk. Yes. I have an amendment at the desk. This 
will be the amendment striking Section 5111. It should be the 
next amendment.
    The Chairperson. Mrs. Davis reserves a point of order, 
strikes. The clerk will read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Barry Loudermilk of 
Georgia, strike Section 5111.
    [The amendment of Mr. Loudermilk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
       
    The Chairperson. Okay. The gentleman is recognized for five 
minutes in support of his amendment.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Before I begin on this, let me again say that you have done 
a very good job of managing this. I apologize that we have had 
to spend this much time in here, but at the speed that this is 
moving and the lack of input that we have had in the process 
all together, this is our only opportunity to address some of 
the grave concerns that we have. In fact, as I read over this 
bill, it is about like reading a Stephen King novel, that you 
don't know what you are going to get around the next turn. And 
it seems like every time we get another turn, there is 
something else that surprises us greater than what we had 
already looked at.
    I mean, so far, some of the issues that we have looked at 
is a bill that undermines over 200 years of States responding 
to the needs of the voters and the citizens of those States, of 
tailoring their laws to ensure that not only is there easy 
access to the polling places, as in the State of Georgia, three 
weeks of advance voting, including adding a Saturday vote in 
there, no restrictions on absentee voting. These are things 
that the people wanted, then the States responded to, that 
States are different of those stated. We have got 200-plus 
years of States responding to the needs of the voter, and then 
we are just going to strip that out because of every idea that 
somebody throws out there. We see an idea that is somewhere in 
the Nation, and we will grab it and throw it in this bill and 
we will just see how it works.
    From what we have seen, some of the ideas facilitate the 
potential of voter fraud, disenfranchises individual voters by 
many, many ways, which again, I think is unintended 
consequences because we haven't taken the time to actually 
engage those who know the election systems best in their 
States, which is the governors, which is the secretaries of 
state, and those elected--the election officials.
    It is a huge unfunded mandate; weakens the power of 
individual ballot by letting or allowing the weaponization of 
the people's votes, empowering trial attorneys to let the 
courts decide elections in some cases; institutionalizes 
questionable campaign practices; strips away the ability for 
States to put the best policies that meet the needs of the 
citizens in place; creates not sanctuary cities, but sanctuary 
polling places.
    Now, when I turn to the next chapter, I see that we are 
creating a government subsidy for politicians, and I think that 
is going to fly over real well with the voting public out there 
who already doesn't trust us. I had somebody say recently, you 
know what politics means? Poly is many, and ticks are 
bloodsucking parasites. You know, I hate to tell you, but that 
is the way people think about us up here.
    Now we are going to ask the taxpayers to fund the campaigns 
of people who probably disagree with--that they are going to 
fund elections of people they possibly disagree with. Oh, but 
of course, the Federal Government does a great job of handling 
finances so far. I mean, just look at our $22 trillion debt. 
Yeah, we do a good job of finances, so why don't we just take 
on more and give out more money, especially to the politicians?
    None of this makes a lot of sense to me when the idea is to 
get government closer to the people, and all we are doing is 
stripping it away because of an idea we see here and an idea we 
see over there.
    Now we come to this, Section 5111, that creates a 6-to-1 
small dollar match program of government taxpayer money to go 
to candidates to help fund their elections. Now, I don't know 
about the rest of the country, but I can tell you what most 
people think of the Federal Government around Georgia. In fact, 
well, I can tell you about the rest of the country, because I 
have been working on customer service legislation. The more we 
dig into customer service legislation, the more we found out 
that more people in this Nation today distrust politicians and 
government officials in Washington, D.C., than ever before in 
the history in this country. Why? Because of the things that we 
do up here. That is why this place is called the swamp, and all 
we are doing now is opening the doors of financing to refill 
the swamp.
    There is a reason that people refer to us as a swamp up 
here, because we do a terrible job with our finances. We do a 
terrible job with fiscal responsibility. We do a terrible job 
with efficiency. Why? Because this Nation was established to 
get government closest to the people, not further away from it, 
and this is exactly what this horror book is doing to the 
American people. I think if this thing was to--I pray that this 
will never pass, but if it does, I can almost guarantee you, we 
are going to be back here in a few years undoing the damage 
that this has done, but you are never going to get back to 
where it was before.
    As I look at this, this government subsidy for politicians 
is the most unbelievable thing that I think I have encountered 
since I have been here in Congress.
    I think I have expressed my opposition to this program, but 
I am in support of this amendment. I do appreciate it, Madam 
Chairperson. You have done a very good job of managing this. 
Thank you for allowing us and not shutting us off to bring our 
grievances because, you know, this is about--we have 
disagreements on things, and this is the forum that we should 
bring this, and I do appreciate you allowing us and even 
putting up with Mr. Davis through all this.
    But with that, I yield back.
    The Chairperson. The gentleman's time has expired.
    Mrs. Davis. I withdraw the point of order.
    The Chairperson. The point of order has been withdrawn. The 
amendment is germane.
    Do other Members wish to be heard on the amendment?
    Mr. Davis of Illinois. I do, Madam Chairperson.
    The Chairperson. You have five minutes.
    Mr. Davis of Illinois. Thank you.
    I have got to agree with my colleague on multiple issues. 
The fact that you have managed this very well, I certainly 
appreciate it. It has been great to be able to have a 
principled debate with our colleagues on issues that we 
disagree on. There is a lot that, as you know, after this 
markup, that I disagree with this bill. This has to be near the 
top, if not at the top, the most egregious provisions that are 
put in place.
    Look, I get it. I get it. The Democrats running for 
Congress weaponized small dollar donors through platforms like 
Act Blue. Heck, you outraised us $374.9 million to $114.9 
million. So who would have thought that somebody, maybe a 
special interest group that we don't yet know about that helped 
write this bill, wouldn't think about, hey, let's add taxpayer 
dollars to turbocharge this a little more.
    Listen. Using the top 20 winning Congressional campaigns as 
the cap for participation in this program, using the formula 
that was created by every Democrat member in this institution 
that cosponsored this bill, the formula they say they 
appreciate, that would make the cap $4.5 million. $4.5 million. 
It doesn't even include the special elections that we know are 
even more expensive. How much would the Georgia special 
election have added to the cap of taxpayer dollars?
    Look, supporting this bill without my amendment? Supporting 
this bill means that every member of this institution who is 
voting supports putting taxpayer dollars, millions, $4.5 
million more potentially in congressional races.
    Look, I have got a couple of examples. I will use me. Look, 
my opponent used Act Blue to outraise me when it came to small 
dollar donors. She would have had $2.8 million more of taxpayer 
money financing her campaign. Heck, she had so much to spend, 
she rented out a city block for her victory party. Sorry to 
ruin that. Texas' 23rd District. Will Hurd's opponent would 
have gotten an extra $4.247 million of taxpayer money to spend. 
Maybe they could have rented out a couple blocks.
    That is not what the American people want, and we still--I 
mean, this is the reason why we have got to slow down. We have 
got to have more hearings. We don't even have a CBO score. 
Heck, I am going to have to send this to the CBO to make sure 
they know, because here is the formula. I don't even know if 
the bean counters over there would not have their heads explode 
over this one.
    Look, again, Madam Chairperson, you have done a phenomenal 
job managing this. I know the reason we are here today is not 
because of anyone on this Committee. The reason we are here 
today is because the Democratic leadership in this institution 
has said we want this bill to pass and make it as seemingly 
open as possible. It is not open, ladies and gentlemen, and 
this provision, I certainly hope--I certainly hope we are going 
to be transparent enough to tell the taxpayers of this country 
that we expect just in two races, two races, to have $6 million 
and $8--$9 million, respectively, given to both candidates.
    Are the taxpayers in this country clamoring to get dark 
money out of politics, saying replace it--or not even replace 
it, add to it. Add to it with your hard earned tax dollars. 
That is crazy, but that is what is in this bill. A vote against 
this amendment accepts that. That is wrong.
    I yield back.
    The Chairperson. The gentleman yields back.
    The gentlelady from California is recognized for five 
minutes.
    Mrs. Davis of California. Thank you, Madam Chairperson.
    Who would have thought? I guess if I am not mistaken, my 
understanding is in terms of Presidential candidates who at the 
time could take public financing, Ronald Reagan was the chief 
beneficiary of those dollars. Now, maybe you are suggesting 
that that is not the case. I have seen it--I think there is an 
issue there.
    Mr. Davis of Illinois. This is not a Presidential 
election----
    Mrs. Davis of California. I am sorry, but----
    The Chairperson. The gentlelady controls the time.
    Mrs. Davis of California. It is my time.
    I think what we are trying to do is think of a way that 
people can feel participatory in elections, including today 
they do not. It is not the small donors that people mistrust; 
it is the large ones.
    There is a way of trying to gather a replacement for what 
we have seen today, and that is not pretty, and we know that. 
So bringing more people into the process, developing their 
interests, having some investment on their part, what we know 
about civic participation is that people don't feel that they 
are being asked to join. This is another way of approaching 
that issue. It wasn't there necessarily for our Presidents. Of 
course, they have chosen to not use public financing. We all 
acknowledge that. But this is an attempt to find a different 
way of approaching the issue.
    I think that Mr. Sarbanes and others who have worked on 
this, Members of Congress, have tried to come up with a way of 
using fines that are there for purposes where people have 
gotten into some difficulty, but they have been able to answer 
it through fines that they propose. It is not taxpayer dollars. 
We know about taxpayer dollars, and certainly those are issues 
that we haven't had a full chance to be part of as well.
    But we can change the whole perception of the general 
public, I think, through trying to come up with a better way, 
and that is really what we have in front of us.
    I yield back.
    The Chairperson. The gentlelady yields back.
    Mr. Walker. Madam Chairperson, I would like to yield my 
time----
    The Chairperson. The gentleman from North Carolina is 
recognized, and he yields to Mr. Davis.
    Mr. Davis of Illinois. I appreciate my colleague from 
California, Mrs. Davis' concerns about money and politics. I 
have to apologize for interrupting you without asking you to 
yield time, so I apologize. I got frustrated. I won't let that 
happen again, and I will be respectful for your time and ask 
for permission in the future. I do apologize for that as this 
debate goes on.
    The Presidential Election Campaign Fund, as we see it, is 
much different than what is being proposed here. Candidates 
have a choice to take either/or. Now, there are other 
provisions in this bill that fix--that don't fix it, make it 
worse. The candidates are allowed to take taxpayer dollars and 
spend unlimited amounts, but that is not what we are talking 
about here.
    We are talking about the infusion of billions of dollars in 
elections--billions of dollars in each election cycle to 
candidates like all of us, and there is no either/or. It is 
added to it. You can say we want to match the small dollar 
contributions, but, heck, you are not saying then you can't 
take PAC money. You are not saying then you can't take other 
sources. You are just supercharging the money that is coming 
in. That is the problem with this bill. That is the problem I 
have.
    It is no--it is nothing compared to the current 
Presidential Election Campaign Fund. Look, there is $374 
million, I believe, right now sitting in the Presidential 
Election Campaign Fund. John McCain was the last person to use 
it. Barack Obama was the first one to say I don't want it, 
because he knew he could go raise more. That is a problem.
    Mrs. Davis of California. I agree.
    Mr. Davis of Illinois. That is why I didn't donate this 
year on my tax form to the Presidential Election Campaign Fund, 
because it is sitting there, and major candidates aren't using 
it. Why in the world, then, would anybody who helped to write 
this bill say that that is the model that we should use to 
infuse billions of dollars into the coffers of campaigns of all 
of us sitting around this table? Taxpayer dollars. That is 
wrong. That is why we have to stop. We have got to put a brake 
on this, and we can't approve something like this.
    That is why this is one of the most egregious provisions 
that we have in this bill. That is not what the American people 
have asked for. And seriously, who helped write this bill? A 
legislator? An outside group that was credited at the press 
conference when introducing this bill? Who thought it was a 
good idea to weaponize what Democrats did much better than 
Republicans with small dollar donors in the last election 
process? Who thought it was a good idea to be able to go to the 
taxpayers and go, here is how we are going to make elections 
better? Here is how we are going to get dark money out of the 
politics.
    We are going to give you taxpayer dollars, but, hey, don't 
worry about the money that is already there, because you can 
still spend it. I mean, look, I gave you $9 million in two 
races. Two. $9 million more that would have been put into the 
system, taxpayer dollars, that is much, much different than the 
current Presidential Election Campaign Fund.
    I know we are skipping other amendments. I think we have a 
couple left, so bear with us. And if one of them is not 
amending the Presidential Election Campaign Fund language in 
here, this is my chance to say, what you have put in that 
portion is supercharging the amount of money that will go into 
the Presidential race too.
    You know who is the biggest small dollar donor candidate in 
the history of politics? Our President, Donald J. Trump. 
Provisions in this bill potentially, if passed, could add more 
money to his coffers than anyone in history that has ever 
thought about using the Presidential campaign. Think about 
that. Think about that before you vote for this bill. Think 
about that before you vote against our amendments and show no 
bipartisanship here. Think about that. That is what this could 
do.
    I know--again, I don't think it is any of us sitting around 
this table that are forcing this issue of having this markup 
today, but we need to take a step back and say enough is 
enough. Do we want to infuse this many more hundreds of 
millions, billions of dollars into the political system that 
taxpayers and voters believe is oversaturated right now? I urge 
you, go to a competitive district. Get in a competitive race. 
We don't need in my race $6 million more dollars. It is 
saturated enough in central Illinois.
    It is wrong. This bill is wrong. This process is wrong. 
This is why this amendment, this amendment, this one of any of 
them, should pass. Nobody should codify lining the campaign 
coffers of people sitting around this dais, which this portion 
of the bill does. No one. No one should be okay with this. Not 
us, not taxpayers, no one.
    The Chairperson. The gentleman's time has expired.
    I would just like to make an important point, which is all 
the funds that would be used come from the Freedom from 
Influence Fund that is established in this bill. In the 
provision, it specifies that no appropriated funds shall be 
used for the Freedom from Influence Fund. In other words, there 
will be no taxpayer money in the Freedom from Influence Fund. I 
think that is an important correction. No taxpayer money 
whatsoever in this program.
    The intent of the program is a voluntary way to pay for 
campaigns to not rely on special interests or Big Money donors. 
It is an alternative way to fund campaigns. It gives political 
power to everyday Americans, boosting their influence and voice 
in our elections. Candidates need to raise at least $50,000 
from 1,000 small donors; that is at $200 or less. And, in fact, 
as the Ranking Member has pointed out, this could benefit, as 
to the Presidential section. President Trump, not someone who I 
voted for, shows that we are truly operating in a bipartisan 
way as we approach this bill.
    Unless there are other members who wish to be heard, I 
would ask that members who favor the amendment indicate their 
support by saying aye.
    Those who oppose will say nay.
    In the opinion of the Chair, the noes have it.
    Mr. Davis of Illinois. Madam Chairperson, I would request a 
roll call vote.
    The Chairperson. A recorded vote has been requested, and 
the clerk will call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    Ms. Fudge. Abstain.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Absolutely, yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, five Members have voted no, 
three Members are yes, and one has abstained.
    The Chairperson. The amendment is not agreed to.
    Are there any additional amendments?
    Mr. Davis of Illinois. Yes. I would like to skip over to 
Davis amendment 25, creating a threshold for reporting small 
dollar donors.
    The Chairperson. A point of order has been reserved. The 
clerk is distributing the amendment. Would the clerk please 
read the title?
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis of 
Illinois. In paragraph 2 of Section 522(a) of the Federal 
Election Campaign Act of 1971, as proposed to be added by 
Section 5111 of the bill, strike the period at the end and 
insert the following: among such payments, shall----
    The Chairperson. I ask unanimous consent that the amendment 
be considered as read.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairperson. Mr. Davis, you are recognized for five 
minutes in support of your amendment.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    This amendment would require the identification of every 
small dollar donor under Section 5111 if the aggregate of 
qualifying small dollar donations from outside the district 
exceeds $250,000. This 6 to 1 match program is inviting outside 
interference in elections. This amendment will shine the light 
on that fact as it would require disclosure of small dollar 
donations after the aggregate of qualifying small dollar 
donations from outside the district exceeds $250,000.
    If a candidate is receiving great sums of money outside the 
district, then the donors should be disclosed like others. I 
remind everybody sitting around this table, currently, any 
donation below $200 does not have to be itemized. We are simply 
saying, if you are getting all your money from outside the 
district, itemize it. This would ensure that people in each 
Congressional district would know how much outside money was 
coming in through this matching program that, again, the 
Majority codified by knocking out our amendment.
    I support the passage of this amendment. You know why? 
Because Act Blue. Act Blue. Again, hey, if people want to play 
partisan politics, I am okay if they want to--if they want to 
play it but be open about it. Be transparent. But the sheer 
fact that Democrats did a better job raising small dollar 
donations than Republicans did shouldn't mean that, again, 
taxpayer dollars should not go to add more money to politics.
    Act Blue had $1,580,437,210 small dollar contributions in 
2018. That was from an analysis from the Center for Responsive 
Politics. And no CBO score. None. It is a problem.
    I know the Majority's tasked with pushing this bill through 
so we can get it to the Floor, send a message. Boy, that is a 
terrible message to send. A terrible message to send.
    I yield back.
    The Chairperson. The gentleman yields back.
    Do other Members wish to be heard on the amendment?
    Does the gentlelady insist on her point of order?
    Mrs. Davis of California. I withdraw the point of the 
order.
    The Chairperson. Withdrawn.
    I would note that the bill, Section 522, already provides 
for enhanced disclosure of information on donors. It includes 
mandatory identification of individuals making qualified small 
dollar contributions, and that is contributions between $100 
and $200. This helps to ensure compliance with Federal campaign 
finance laws. These qualified small dollar contributions are 
being matched with funds from the Freedom from Influence Fund.
    As for small dollar contributions that are not matched, 
regular disclosure rules apply, which means that contributions 
that are less than $200 and not matched are not required to be 
disclosed. And that is just current law.
    Now, I want to talk a little bit about Act Blue, because 
Act Blue is already required by Federal law to report the 
details of every single contribution that comes into and out of 
its platform to the Federal Elections Commission. That is why 
we know how much money and exactly from whom Act Blue has 
processed. It does not matter how large or small the 
transaction. Act Blue is considered a conduit under Federal law 
for individual contributions made through its platform. It is a 
payment processor. And under Federal law, contributions made to 
Act Blue are made by individuals themselves. They are not PAC 
donations.
    Whenever a donor contributes to a candidate or political 
committee through Act Blue, it provides the contributor's name, 
address, occupation, and employer information, along with the 
details of the donation, in its regularly filed reports with 
the FEC. Each candidate, committee, or organization receiving 
donations may also include this information in their regulatory 
reports.
    As for candidates and parties and PACs, they are required 
to identify contributors giving more than $200 in their 
disclosure reports. Lowering the disclosure threshold will not 
provide the public with the useful information about Big Money 
donors who are trying to influence elections. You know, some 
have opposed disclosure for $10,000 donations by big 
corporations and secret front groups but want disclosure for 
$25 grassroot donors. I just don't think that is reasonable. I 
think this amendment is misplaced. I would urge that we oppose 
the amendment.
    Unless there are further comments on it, I would ask that 
those who favor the amendment indicate their favor by saying 
aye.
    And those opposed by saying no.
    In the opinion of the Chair, the noes have it.
    A roll call has been requested, and the clerk will call the 
roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. Yes.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, six Members have voted no, 
three Members have voted yes.
    The Chairperson. The amendment is not agreed to.
    Are there additional amendments?
    Mr. Davis of Illinois. One last one.
    The Chairperson. Ah.
    Mr. Davis of Illinois. Go ahead and cheer. It is okay.
    Mrs. Davis of California. I don't have to say point of 
order anymore?
    Mr. Davis of Illinois. One more time. One more time.
    Mr. Walker. You can and probably will be through the night.
    The Chairperson. The clerk is distributing Mr. Davis' last 
amendment. Mrs. Davis reserves a point of order, and the clerk 
will read the title.
    The Clerk. The amendment to the amendment in the nature of 
a substitute to H.R. 1, offered by Mr. Rodney Davis of 
Illinois, strike Subtitle A of Title 6.
    Mr. Davis of Illinois. Well, we are combining three 
amendments: amendment 29, amendment 30, and amendment 31.
    The Chairperson. All right. Let's see if the clerk can 
distribute all of those before we proceed.
    Mr. Davis of Illinois. The one we distributed is good. It 
is multiple pages.
    The Chairperson. Oh, okay.
    Mr. Davis of Illinois. It reflects those three pages.
    The Chairperson. Okay. Very good.
    [The amendment of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. The gentleman is recognized for five 
minutes in support of your amendment.
    Mr. Davis of Illinois. Again, thank you all. I love the 
markup process. I love the hearing process. That is why we came 
to Congress is to legislate. I don't agree with your votes, you 
don't agree with mine, but that is okay. That is okay. But this 
one, I certainly hope we can get some agreement on.
    In amendment 29, what we do is we strike Section 6002, and 
this provision in H.R. 1 changes the current six-member 
commission of the FEC to a five-member commission. Look, we 
can't even mail bulk mail out of the House of Representatives 
without going through a completely equal bipartisan commission, 
the Franking Commission. I chaired it last Congress. Mrs. Davis 
was the co-Chair. We had some disagreements, but in the end, we 
had more disagreements than disagreements, but we had to work 
together, and we did. We did.
    So this provision will take away the bipartisan nature of 
the FEC right now. The FEC shouldn't be weaponized by any 
administration, Republican or Democrat. I mean, are you 
comfortable with President Trump naming a partisan FEC? Thank 
you, Marcia. I am not, either. I am not comfortable with any 
President naming a partisan FEC.
    I don't believe this is a partisan amendment, you know. 
Some of my colleagues expressed some concern during the hearing 
that we had, the one hearing we had, in regard to provisions 
like this going through the FEC.
    Amendment No. 30, which is the second amendment that was 
combined, gives new powers to the Chair of the Commission that 
currently require bipartisan support. Who the heck wants a 
czar, an FEC czar to chair the Commission? That is partisan. It 
is appointed by a President. Look, and maybe there is going to 
be gridlock. Maybe a Democratic appointee in the future can't 
get through that evil, bad Mitch McConnell in the Senate. Then 
you have got a partisan--you have got a partisan warrior who 
has been given power by the previous President that you may or 
may not have knocked out, and then all of a sudden, you are 
still weaponized with the FEC. That should concern us. That 
should concern us for the balance of Constitutional powers that 
we have here in this institution. We don't need a free speech 
czar sitting over at the FEC.
    A third portion of our amendment, third amendment, is 
rolled into this. This one is classic coming out of many who I 
am sure helped write this bill. They give a lawyer--they give 
the general counsel of the FEC new authority, and actually 
takes the power away from the appointed and confirmed 
Commissioners whose job it is to enforce campaign finance law 
in a bipartisan way. Just like Susan and I enforced franking 
laws, mailing laws. We were forced to do it in a bipartisan 
way. Forced to do it in a bipartisan way.
    The decision to hire and fire agency general counsel in the 
past required some degree of bipartisan agreement, but H.R. 1, 
as written, without this amendment, would destroy that 
bipartisan requirement, allowing the President's appointed 
chair to name the general counsel with the support of any two 
of the other four Commissioners appointed by that same 
President. No bipartisan support. Do we want the FEC operating 
like this markup today? I certainly hope my colleagues on the 
other side of the dais don't.
    We see a process that, once an investigation has begun, 
according to H.R. 1, it will enhance the power of the general 
counsel to issue subpoenas on his or her own authority. There 
has got to be another drafting error. Seriously. This has got 
to be a drafting error. I would certainly hope that we might 
have a quick markup someday to fix this. Really? We are going 
to accept this? We have Commissioners that are confirmed. We 
are elected officials. We are confirmed by our voters every 2 
years.
    Come on. Help me with this one. I combined three into one. 
Show some bipartisan support. Does anybody sitting around this 
dais really want to weaponize the FEC? Even our Congressional 
Ethics Committee does not have a partisan leaning. I know we 
are joined by the former chair of that committee. Nobody would 
decide, ``You know what? Let's slide a provision into a 571-
page bill, and let's go ahead and make the Ethics Committee 
partisan.'' No. Let's not make the FEC partisan either. Help me 
out here. Please. I am begging you. I yield back.
    The Chairperson. The gentleman yields back.
    Do other Members wish to be heard on this amendment?
    Mrs. Davis of California. I withdraw the point of order.
    The Chairperson. Mrs. Davis withdraws her point of order.
    I would like to make a couple of comments. First, the FEC's 
mission is to protect the integrity of our Federal campaign 
finance laws, and it is supposed to enforce and administer the 
laws on the books and ensure that political spending is 
transparent, and I think it is obvious that the FEC is a 
completely failed agency. The current state of affairs at the 
FEC only serves to benefit those who want to rig the system and 
those who benefit with no referee on the field.
    Former FEC Chair Ann Ravel, who I have known for 40 years, 
told The New York Times that the FEC, and this is a quote, ``is 
worse than dysfunctional and that the likelihood of laws being 
enforced is slim.'' She published her report in 2017 showing a 
huge increase in deadlocked votes over the past decade. That is 
because the FEC has gotten bogged down in dysfunction and 
deadlock. Hundreds of enforcement cases are languishing, and 
that is not fair to candidates or to the public or to anyone 
who depends on fair administration of the law. It has not 
enacted major disclosure rules after Citizens United, even 
though the Supreme Court really invited them to do so. It 
cannot even agree to hire a permanent general counsel. There 
has been no permanent general counsel for more than 4 years, 5 
years. H.R. 1 breaks the gridlock by setting up a five-member 
commission instead of a six-member commission. H.R. 1 prevents 
a partisan takeover of the FEC by mandating that no more than 
two of the five Commissioners can be from the same political 
party so that no one party can take over the Commission, and it 
sets up a blue ribbon panel to help name nominees to the 
Commission. That will make the nomination process more fair and 
more transparent. It also lets nonpartisan career staff make 
initial findings in enforcement cases while at the same time 
ensuring that the Commission can always overrule the career 
staff.
    To say that this sets up an election czar with a powerful 
chair is incorrect. The Chair gets the same powers typically 
given to other agency chairs: preparing a budget, hiring a 
staff director, being the chief administrative officer. While 
it is true that the Chair will have the power to issue a 
subpoena, so can the rest of the Commission with a majority 
vote.
    It is true that H.R. 1 provides new powers in that way to 
hire a staff director, but that is really not that unusual. 
While the chair is also given the power to issue subpoenas, as 
I say, the Commission can exercise the same power and check on 
the Chair.
    Finally, as to the general counsel, the bill provides that 
an initial decision to open an investigation can be made by the 
general counsel but can be overridden by a majority vote on the 
Commission within 30 days. Now, that is an important way to 
streamline the enforcement process. Cases right now languish 
for years on the FEC's enforcement dockets, and that is just 
not fair to complainants nor respondents. It doesn't unduly 
empower the general counsel because the Commission has the 
final say as to whether to find probable cause in a case and 
whether to pursue an enforcement action. And even when it comes 
to starting an investigation, the Commission can overrule the 
general counsel.
    The current FEC has two Republicans, one Independent, one 
Democrat, and two vacancies. They can't do anything, and we 
need to break this logjam. I think what is in H.R. 1 is a 
reasonable effort. I think it has a high probability of success 
and that our enforcement of our laws is not weaponizing the 
FEC; it is making sure that the laws that we have already 
enacted relative to campaign finance reform actually are 
enforced.
    Are there additional Members who wish to be heard? The 
gentleman from Georgia.
    Mr. Loudermilk. Thank you, Madam Chairperson. I will be 
very brief.
    It is true that we have some gridlock at the FEC, and it 
takes time to get things done. But we are restricting free 
speech. It ought to be hard. And from what I see in this bill, 
there is significant restriction on free speech. I would also 
add that how long has it been since we have reformed the FEC? 
It has been a long time. Why? Because it is really hard to do 
these things, and if things aren't right, it takes a lot to 
undo it. And that is what I am afraid will happen if this bill 
goes forward and we see all the things that we have warned 
about in here in terms of unintended consequences. This doesn't 
just affect us. It affects the millions of people in this 
Nation. It may be near impossible to do those.
    Again, I thank you for the time and for the good job of 
managing it, and I yield back.
    The Chairperson. The gentleman yields back.
    Do other Members wish to be heard?
    The gentleman from Maryland is recognized for five minutes.
    Mr. Raskin. Thank you, Madam Chairperson.
    I just want to add a postscript to your comments. Most 
Federal commissions and agencies operate on an odd number 
composition. The FEC has been the exception, and it has been an 
exception which perhaps demonstrates the wisdom of the general 
rule because it has been the absolute paradigm of dysfunction 
and paralysis and deadlock to the point where they can barely 
even hire staff members. There is a multiyear backlog of cases 
over at the FEC. So, by revamping the composition so it is in 
line with the other Federal agencies and commissions, I think 
all we are doing is improving its operation and giving it the 
opportunity to actually work. I mean, one can only imagine what 
it would be if we used the current FEC principle and imported 
it to other Federal commissions like the FTC and the SEC and 
the FCC or to the Supreme Court, for that matter. It would be a 
recipe for complete paralysis.
    So I think that, yeah, I would like to be able to help our 
friend from Illinois in backing one of his amendments, but I am 
afraid that this one moves us backwards instead of moving us 
forward to a functional and improved FEC.
    The Chairperson. Thank you. Are there additional comments 
on this amendment? If not, we will move the--I think the point 
of order has already been withdrawn.
    So I will ask those who favor the amendment to signify that 
by saying aye. Those opposed will say no. In the opinion of the 
Chair, the noes have it.
    Mr. Davis of Illinois. One last request for a recorded 
vote.
    The Chairperson. A request for a recorded vote has been 
made. The clerk will please call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. No.
    The Clerk. Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. No.
    The Clerk. Ms. Fudge.
    Ms. Fudge. No.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. Yes.
    The Clerk. Mr. Walker.
    Mr. Walker. Yes.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. I think I will do a yes on this one.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, six Members have voted no; 
three Members have voted yes.
    The Chairperson. The amendment is not agreed to.
    It is my understanding that was the last amendment, and 
there being no further amendments, the question would then be 
on agreeing to H.R. 1, as amended.
    All those in favor will please say aye.
    And those opposed will say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 1, as amended, is agreed to.
    Mr. Davis of Illinois. I request a recorded vote.
    The Chairperson. A recorded vote has been requested. You 
have to actually find that the ayes have it, and you would like 
a recorded voted now?
    Mr. Davis of Illinois. I would like a recorded vote.
    The Chairperson. The clerk will please call the roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. Aye.
    The Clerk. Mr. Raskin.
    Mr. Raskin. Aye.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. Aye.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Aye.
    The Clerk. Ms. Fudge.
    Ms. Fudge. Aye.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. Aye.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. No.
    The Clerk. Mr. Walker.
    Mr. Walker. No.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. No.
    The Chairperson. The clerk will report.
    Mr. Davis of Illinois. Madam Chairperson, pursuant to House 
Rule XI, clause 2(l), I request that all Members have two 
additional calendar days to file supplemental minority 
additional or dissenting views in the Committee report to the 
House accompanying H.R. 1.
    The Chairperson. Certainly, I was going to do that myself.
    Mr. Davis of Illinois. I was just told by these folks to 
read it.
    The Chairperson. We will unanimously agree to that.
    Mr. Davis of Illinois. Thank you.
    The Chairperson. The clerk will report the final vote.
    The Clerk. Madam Chairperson, six Members voted yes; three 
Members voted no.
    The Chairperson. The ayes have it. H.R. 1 is agreed to, and 
the motion to reconsider is laid on the table.
    I move that H.R. 1, as amended, be reported favorably to 
the House.
    All those in favor of reporting H.R. 1, as amended, 
favorably to the House, say aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to, unless there is a recorded vote asked for 
again.
    Mr. Davis of Illinois. Yes.
    The Chairperson. And there is. The clerk will call the 
roll.
    The Clerk. Chairperson Lofgren.
    The Chairperson. Aye.
    The Clerk. Mr. Raskin.
    Mr. Raskin. Aye.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. Aye.
    The Clerk. Mr. Butterfield.
    Mr. Butterfield. Aye.
    The Clerk. Ms. Fudge.
    Ms. Fudge. Aye.
    The Clerk. Mr. Aguilar.
    Mr. Aguilar. Aye.
    The Clerk. Mr. Davis.
    Mr. Davis of Illinois. No.
    The Clerk. Mr. Walker.
    Mr. Walker. No.
    The Clerk. Mr. Loudermilk.
    Mr. Loudermilk. No.
    The Chairperson. The clerk will report.
    The Clerk. Madam Chairperson, six Members have voted yes; 
three Members have voted no.
    The Chairperson. On that H.R. 1, as amended, is ordered 
reported favorably to the House.
    Pursuant to clause 2(l), Rule XI--oh, we have already done 
the additional days unanimously.
    Also, without objection, the staff is authorized to make 
any technical and conforming changes.
    Unless there are additional matters of business before us, 
without objection the Committee will stand adjourned with 
thanks to the Members for your active participation on this 
bill.
    [Whereupon, at 6:00 p.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
